Office of
Inspector
General
Semiannual
Report to
the Congress
October 1, 1987 to
March 31, 1988 .



May 1,1988




                     /
FOREWORD
This report, submitted pursuant to the Inspector Gen-
eral Act of 1978, summarizes Office of Inspector General
(OIG) activity over the 6-month period ending March 31,
1988. It is my fifth Report to the Congress.
The report reflects an effective and broad-ranging In-
spector General presence in the General Services
Administration. The benefits of this presence can be
seen, in part, by the level of dollar savings accruing to the
Government. This period, such savings-in terms of
management commitments to recover funds, manage-
ment commitments to more efficiently use resources,
voluntary recoveries, court-ordered recoveries, and inves-
tigative recoveries--totaled $96,778,353.
This Office's accomplishments have been made possible
by the strong support we have received from GSA man-
agement. Notably, during the audit resolution process,
agency management upheld 86 percent of the
$110,898,602 in OIG financial recommendations.




WILLIAM R. BARTON
Inspector General


April 29, 1988
INTRODUCTION AND OVERVIEW

A. Introduction                                                Federal Supply Service

This report, submitted pursuant to the Inspector Gen-          OIG coverage of the Federal Supply Service (FSS) focused
eral Act of 1978, chronicles the activities of the General     on multiple award schedule contracting. In response to
Services Administration (GSA) Office of Inspector Gen-         significant OIG audits and investigations, the Depart-
eral (OIG) between October I, 1987 and March 31, 1988.         ment of Justice and/or FSS officials:
It is the nineteenth Report to the Congress since the ap-        •     Reached a $43,6'20 civil fraud settlement with a
pointment of GSA's first Inspector General.                            medical equipment supplier.
                                                                 •     Successfully prosecuted a partition supplier for
                                                                       submitting falsified laboratory test results and a
B. Overview                                                            hardware supply company for violating the False
                                                                       Claims Act.
The following paragraphs provide an overview of OIG au-          II)   Avoided $5.1 million in expenditures on a contract
dit and investigative coverage of the Agency, as well as a             for office photographic equipment.
summary of OIG accomplishments. In addition, this sec-
tion highlights significant OIG prevention activities.         Detailed information on these and other activities is pre-
                                                               sented in Section III.


1. Audit and Investigative Coverage of GSA
   Programs                                                    Information Resources Management Service

Audit and investigative coverage of GSA programs iden-         The ~IG's coverage of the Information Resources Man-
                                                               agement Service (IRMS) continued to focus on its con-
tified a number of opportunities for more efficient and ef-
                                                               tracting function, particularly the multiple award
fective Agency operations. Overall, this report reflects a
strong commitment on the part of GSA management to             schedule program. As a result of the findings developed
make those improvements.                                       through several OIG postaward and preaward audits,
                                                               IRMS management:
                                                                 II)   Negotiated the recovery of $778,183 from a multi-
                                                                       ple award schedule supplier of ADP equipment.
Public Buildings Service
                                                                 •     Avoided $'23.'2 million in expenditures for the pur-
This period, 48 percent of the OIG audit reports issued                chases of ADP equipment and software, and com-
addressed Public Buildings Service (PBS) programs.                     munications equipment.
These audits advised PBS managers of:                          In addition, a series of internal reviews issued this period
  l1li   The need to recover overpayments for rent, tenant     assisted IRMS managers in improving security and fire
         agency overtime services, and elevator mainte-        safety at computer facilities.
         nance services.                                       Detailed information on these and other activities is pre-
  II)    Opportunities to improve energy practices in          sented in Section IV
         leased buildings.
  •      Potential cost avoidances of $3.9 million on three
         contractor claims for damages and $'2.4 million on    Other GSA Coverage
         a procurement for facility management services.
                                                               The OIG issued 30 internal reviews evaluating organi-
Actions by the Department of Justice on other notewor-
                                                               zations such as the Office of Administration, the Federal
thy audits and investigations resulted in:
                                                               Property Resources Service, and the Office of the Comp-
  •      A $'218,4'24 civil settlement agreement with a les-   troller. These reviews addressed such diverse areas as
         sor's representative who submitted a lease escala-    payment procedures, GSA's implementation of the Fed-
         tion proposal containing overstated costs.            eral Managers' Financial Integrity Act (FMFIA), printing
                                                               operations, real property disposal, and imprest funds.
  (&     Successful prosecution of a repair and alterations
         contractor for bribery of a GSA employee.             Two especially noteworthy reviews assisted management
                                                               in taking action to:
Detailed information on these and other activities is pre-
sented in Section II.                                            •     Strengthen controls over payments to contractors.
      '"     Improve GSA's process for implementing Section 4        '"   9 contractor suspensions and 2 7 contractor
             of the FMFIA.                                                debarments;
    In addition, ten imprest fund reviews advised manage-            '"   15 reprimands, 3 suspensions, 2 demotions, and 6
    ment of the need to improve internal controls and secu-               terminations of GSA employees;
    ri ty safeguards.
                                                                     '" 34 Inspector General subpoenas; and
    Detailed information on these and other activities is pre-
                                                                     CD   208 legislative initiatives and 104 regulations and
    sented in Section V
                                                                          directives reviewed.
                                                                   Management commitments to more efficiently use re-
                                                                   sources, management commitments to recover funds,
    2. Overall OIG Accomplishments                                 voluntary recoveries, court-ordered recoveries, and inves-
                                                                   tigative recoveries totaled $96,778,353 during the first
    OIG accomplishments this period included:                      half of FY 1988. This represented a return of $7.97 for
      '"     405 audit reports;                                    every $1 budgeted to OIG operations during the 6-month
                                                                   period.
      '"     $168,576,556 in recommendations for more
             efficient use of resources and in recovery            Detailed information on these and other activities is pre-
             recommenda tions;                                     sented in Sections VI and VII.

      '"     $91,161,766 in management commitments to more
             efficiently use resources;                            3. Prevention Activities
      •      $5,616,587 in management commitments to re-
                                                                   As detailed in Section VIII, the OIG's program to prevent
             cover funds, voluntary recoveries, and court-
                                                                   fraud, waste, and mismanagement encompasses a wide
             ordered and investigative recoveries;
                                                                   variety of activities.
      '"     241 investigative cases opened and 175 closed;
                                                                   Highlights of our efforts during the period included:
      •      14 case referrals accepted for criminal prosecution
             and 4 case referrals accepted for civil litigation;     '"   Completion of 43 preaward advisory reviews of
                                                                          leases involving annual rentals in excess of
      '"     6 indictmentslinformations on criminal referrals;            $200,000.
      l1li   9 successful criminal prosecutions;                     CD   Integrity Awareness Briefings for 124 GSA employees.
      •      6 settlements, 3 judgments, and 1 civil fraud           '"   Receipt of 282 Hotline calls/letters and referral of
             complaint;                                                   75 of these complaints for further action.




u
TABLE OF CONTENTS
                                                                   Page
INTRODUCTION AND OVERVIEW ................ .                              SECTION VI-STATISTICAL SUMMARY OF
                                                                          OIG ACCOMPLISHMENTS................................               16
REPORTING REQUIREMENTS........................                     iv
                                                                            A. OIG Accomplishments................................          16
SECTION I-ORGANIZATION, STAFFING,                                           B. Summary Statistics.....................................      17
AND BUDGET....................................................      1
                                                                          SECTION VII-REVIEW OF LEGISLATION
  A. Organization...............................................    1
                                                                          AND REGULATIONS .........................................         24
  B. Office Locations ..........................................    1
                                                                            A. Legislation/Regulations Reviewed.. ............              24
  C. Staffing and Budget.....................................       1
                                                                            B. Significant Comments ................................        24
SECTION II-PUBLIC BUILDINGS SERVICE..                               2
                                                                          SECTION VIII-OTHER OlG ACTIVITIES .....                           26
  A. Overview of OIG Activity...........................            2
                                                                            A. OIG Prevention Program.............................          26
  B. Significant Audits and Investigations .........                2
                                                                            B. Projects Sponsored by the PCIE ..................            27
  C. Significant Preaward Audits .......................            4
  D. Statistical Highlights..................................       4
  E. Significant Audits From Prior Reports .......                  5
SECTION III - FEDERAL SUPPLY SERVICE.....                           7
  A. Overview of OIG Activity...........................            7     APPENDICES
  B. Significant Audits and Investigations.........                 7     APPENDIX I-AUDIT REPORT REGISTER.....                             30
  C. Significant Preaward Audits .......................            8
  D. Statistical Highlights..................................       9     APPENDIX II-DELINQUENT DEBTS.............                         46
  E. Significant Audits From Prior Reports .......                 10
SECTION IV-INFORMATION RESOURCES
MANAGEMENT SERVICE.................................                11
  A. Overview of OIG Activity...........................           11     LIST OF TABLES
  B. Significant Audits .......................................    11
                                                                          1.   Summary of OIG Audits.................................       17
  C. Significant Preaward Audits .......................           12
                                                                          2.   Resolution of OIG Audits .................... ...........    18
  D. Statistical Highlights..................................      13
                                                                          3.   Resolution Decisions on OIG Audits .............             19
  E. Significant Audits From Prior Reports .......                 13
                                                                          4.   Summary of Contract Audit Settlements.......                 20
SECTION V-OTHER GSA COVERAGE ..........                            14     5.   Investigative Workload....................................   21
  A. Overview of OIG Activity...........................           14     6.   Distribution of Cases Opened This Period ....                21
  B. Significant Audits .......................................    14     7.   Summary of OIG Subject Referrals ................            22
  C. Statistical Highlights..................................      15     8.   Summary of Criminal and Civil Actions.......                 23
  D. Significant Audits From Prior Reports .......                 15     9.   Criminal and Civil Recoveries .......................        23




                                                                                                                                                 111
     REPORTING REQUIREMENTS
     The table below cross-references the reporting require-                              No. 96-829 relative to the 1980 Supplemental Appropria-
     ments prescribed by the Inspector General Act of 1978 to                             tions and Rescission Bill is also cross-referenced to the
     the specific pages where they are addressed. The infor-                              appropriate page of the report.
     mation requested by the Congress in Senate Report



                                                                Source                                                                       Page
          Inspector General Act
          1. Section 4(a)(2)-Review of Legislation and Regulations ...................................... .                                     24
          2. Section 5(a)(1 )-Significant Problems, Abuses, and Deficiencies ........................ .                                    2, 7, 11, 14
          3. Section 5(a)(2)-Recommendations With Respect to Significant Problems,
               Abuses, and Deficiencies .................................................................................. .               2, 7, 11, 14
          4. Section 5(a)(3)-Prior Recommendations Not Yet Implemented .......................... .                                       5,10, 13, 15
          5. Section 5(a)(4)-Matters Referred to Prosecutive Authorities .............................. .                                       22
          6. Sections 5(a)(5) and 6(b)(2)-Summary of Instances Where Information Was
               Refused ............................................................................................................ .   None This Period
          7. Section 5(a)(6)-List of Audit Reports ................................................................... .                       30
          Senate Report No. 96-829
          1. Resolution of Audits ...............................................................................................              18
          2. Delinquent Debts ...................................................................................................              46




iv
SECTION I-ORGANIZATION, STAFFING,
AND BUDGET

Pursuant to the Inspector General Act of 1978, an Office             OIG comments on existing and proposed legisla-
of Inspector General (OIG) was established within the                tion, regulations, and GSA policy issuances, and
General Services Administration (GSA) on October 1,                  assist in litigation.
1978. As currently configured, the OIG consists of four
offices that function cooperatively to perform the mis-          •   The Office of Policy, Plans, and Management Sys-
sions legislated by the Congress.                                    tems, a centralized unit that oversees the develop-
                                                                     ment of OIG policies and strategic plans, provides
                                                                     data systems support, and handles budgetary, ad-
                                                                     ministrative, and personnel matters.
A. Organization
The OIG utilizes a functional organizational structure to
provide nationwide coverage of GSA programs and activ-
                                                               B. Office Locations
ities. It consists of:                                         The OIG is headquartered in Washington, DC, at GSA's
  •   The Office of Audits, a multidisciplinary unit           Central Office building. Field audit and investigations of-
      staffed with financial and technical experts who         fices are maintained in the following cities: Boston, New
      provide comprehensive coverage of GSA operations         York, Philadelphia, Atlanta, Chicago, Kansas City, Fort
      (internal or management audits) as well as GSA           Worth, San Francisco, and Washington, DC. In addition,
      contractors (external or contract audits). Headquar-     the Office of Audits has a resident office in Auburn. The
      ters directs and coordinates the audit program,          Office of Investigations has resident offices in Auburn,
      which is performed by the twelve field audit offices     Cleveland, St. Louis, and Los Angeles.
      and one resident office. This period, a major reor-
      ganization of Washington, DC operations resulted
      in the establishment of four field audit offices, each
      with responsibility for a major GSA program area,        c.    Staffing and Budget
      in place of a single field office.
                                                               The OIG's approved Fiscal Year (FY) 1988 budget is ap-
  •   The Office of Investigations, an investigative unit      proximately $24.3 million, an increase of $2.6 million
      that manages a nationwide program to prevent and         over FY 1987. Some $12 million was available for obliga-
      detect illegal and/or improper activities involving      tion during the firs t half of FY 1988.
      GSA programs, personnel, and operations. Opera-
      tions officers at headquarters coordinate and over-      The OIG started FY 1988 with a total on-board strength
      see the investigative activity of nine field             of 422 full-time employees, 156 of whom had been hired
      investigations offices and four resident offices.        during FY 1987. Of these 156 new hires, 130 were entry-
                                                               level auditors and investigators. This period, the orG
  •   The Office of Counsel to the Inspector General, an       moderated its recruitment activities in order to focus on
      in-house legal staff that provides opinions and ad-      training these entry-level auditors and investigators. At
      vice on matters under OIG review. These attorneys        the end of the semiannual period, the OIG's full-time
      also manage the civil referral system, formulate         staff totaled 426.




                                                                                                                             1
    SECTION II - PUBLIC BUILDINGS SERVICE

    The Public Buildings Service (PBS) manages much of the         Rental Overpayments
    Federal Government's real estate assets nationwide. Its
    responsibilities range from constructing, purchasing,          Based upon a request from a GSA Regional Counsel, the
    and leasing space for Government use to maintaining            OIG reviewed the records of a building trustee to whom
    and protecting that space. In the first half of FY 1988, the   GSA makes rental payments for leased space. The review
    total available funding authority of the Federal Buildings     was performed to support the Government's position re-
    Fund was over $2.3 billion. During the same period, PBS        lating to a $2 million claim for reimbursement of exces-
    obligated over $1.3 billion of these funds.                    sive rental payments.
                                                                   Our review determined that the Government's position
                                                                   was fully supported and that the claimed amount should
    A. Overview of OIG Activity                                    be increased to reflect interest due since the filing of the
                                                                   claim. In addition, the review found that the trustee's
    This period, over 60 percent of the internal audit reports     proposal for lease escalation for the second lease period
    issued by the OIG addressed PBS programs and activities.       had included building costs, such as carpet replacement
    We presented findings relative to leasing issues, repair       and painting, although reserves had been established for
    and alteration projects, energy conservation, elevator         these types of building costs. The GSA contracting offi-
    maintenance, and buildings management. Some of the             cer erroneously accepted the building costs as operating
    more significant reviews assisted PBS managers in tak-         costs and, as a result, the rental payments were increased
    ing action relative to:                                        by a greater amount than was allowable under the lease
                                                                   escalation clause.
      •   Initiating collection actions for rental overpayments.
                                                                   Our December 21, 1987 report recommended that the
      •   Recovering the costs of overtime services provided       Regional Counsel, in coordination with the contracting
          to tenant agencies.                                      officer:
      •   Improving energy practices in leased buildings.            •    Initiate action to recover additional interest of
      •   Recovering overpayments for elevator maintenance                $468,930 on the original $2 million claim.
          services.                                                  19   Initiate collection action for overpayment and in-
    The OIG also issued 114 contract audit reports relative to            terest totaling $2,027,466 relating to inclusion of
    PBS programs, many evaluating construction claims,                    the building costs in the lease escalation.
    change orders, and lease escalation proposals. In total,       Regional Counsel concurred with the intent of the rec-
    these reports recommended cost avoidances and cost re-         ommendations. We are awaiting the action plans for im-
    coveries of $38.6 million.                                     plementing our recommendations.
    Joint OIG audit and investigative effort resulted in a
    $218,424 civil settlement with a lessor's representative.
    The OIG review disclosed that a lease escalation pro-
    posal had contained overstated costs.
    OIG investigators completed 75 cases involving PBS pro-        $218,424 Civil Settlement
    grams, operations, or employees. Of these cases, 45 per-
    cent involved allegations of white collar crimes. Notably,     On December 11, 1987, the Government entered into a
    an OIG investigation resulted in the conviction of a GSA       pretrial settlement agreement with a lessor's represen-
    repair and alterations contractor on bribery charges. The      tative, who was also a partner in the leasing firm. Under
    contractor paid a GSA employee to approve payment on a         the terms of this settlement, which was negotiated by the
    claim filed with GSA.                                          U.S. Attorney, the representative agreed to pay $150,000,
                                                                   plus $68,424 in interest, to settle his potential civillia-
                                                                   bility to the Government.
    B. Significant Audits and                                      Joint OIG audit and investigative effort disclosed that the
                                                                   lessor's representative submitted a lease escalation pro-
       Investigations                                              posal that overstated the costs incurred for janitorial serv-
                                                                   ices and supplies. This proposal was relied upon by GSA
    This section summarizes significant internal audits and        when calculating a new annual rental rate to reflect in-
    investigations dealing with PBS. Significant preaward          creased operating costs. As a result, the lessor received
    contract audits are presented in Section C.                    excessive rental payments.




2
Payments For Overtime Services in                             meeting during which the contractor gave the employee
Leased Space                                                  $200.

This period, the OIG completed its evaluation of one GSA
region's payments for overtime services and utilities in      Energy Conservation Practices in
leased space. The evaluation involved review work at five     Leased Buildings
field offices as well as the Real Estate Division and the
Real Property Management and Safety Division. The re-         This period, the OIG completed a multiregional evalua-
view concluded that, while most payments for overtime         tion of energy usage in leased facilities where the Govern-
services and utilities were handled effectively, compli-      ment pays utility costs. Reviews were performed in six
ance with GSA regulations and internal controls re-           GSA regions. Individual reports summarizing specific
quires strengthening.                                         conditions in each region were issued.
We found that the region has not obtained reimburse-          Our January 22, 1988 consolidated report informed the
ment from tenant agencies for the around the clock op-        Commissioner, Public Buildings Service, of energy prac-
eration of a border station. GSA regulations provide for      tices in violation of lease terms. For example, we found
client agencies receiving services based upon a standard      instances where building heating and cooling systems
five-day workweek with any additional services to be          were operating simultaneously, heating systems oper-
provided on a reimbursable basis. We estimate that            ated continuously, lighting levels exceeded lease require-
tenant agencies received almost $3 million of services in     ments, buildings were cooled below specified
excess of the standard level during the period from           temperatures, and lessor operating and maintenance
February I, 1980 through September 30, 1987.                  practices were inadequate. Lease inspections prior to our
                                                              review had not identified these situations.
The review also disclosed that field offices made dupli-
cate payments and did not obtain written certifications       The final report recommended that the Commissioner
from tenant agencies for overtime services. Further, we       establish a program to monitor and manage utility usage
found that established overtime rates were inordinately       in leased space on a consumption or cost per square foot
high.                                                         basis, and review leases with excessive usage to deter-
                                                              mine if reductions are possible.
Our October 23, 1987 report offered 17 recommendations
to the Assistant Regional Administrator, Public Build-        The Commissioner concurred with the recommenda-
ings Service, to correct identified deficiencies. These in-   tions in the draft report. We are awaiting the action plans
cluded recommendations to:                                    for implementing our recommendations.
  •   Recover the cost of overtime services provided ten-
      ant agencies at the border station and continue to
      recover these costs in succeeding years.
                                                              Elevator Maintenance
  •   Establish a record keeping system that enables field    As part of a review of the elevator maintenance program
      office personnel to prevent duplicate overtime          in one GSA region, the OIG examined a contractor's per-
      payments.                                               formance in providing full elevator maintenance service
                                                              at a Federal facility. The contractor has a three-year con-
  •   Recover overpayments from lessors and pay only for      tract with an estimated value of $528,084.
      overtime services when requested by the tenant.
                                                              The contractor's time sheets and machine room logs did
  •   Evaluate all overtime rates for leased buildings and    not establish that the contractor had provided the eight
      prepare independent estimates for overtime services.    hours per week of service engineering time required by
The Regional Administrator generally concurred with           the contract. Further, the ten hours per day of journey-
the recommendations in the draft report. We are awaiting      man elevator mechanic's time specified in the contract
action plans for implementing these recommendations.          was frequently not provided. As a result, the auditors es-
                                                              timate that GSA overpaid the contractor by approxi-
                                                              mately $56,000.
                                                              In our February 11, 1988 report, we recommended that
Bribery Conviction                                            the Assistant Regional Administrator, Public Buildings
                                                              Service:
On March 3, 1988, a GSA repair and alterations contrac-
                                                                •   Determine the number of productive hours the
tor pled guilty to bribing a public official. Sentencing is
                                                                    Government has not been provided and make ap-
scheduled for April 1988.
                                                                    propriate deductions from contractor payments.
The conviction resulted from an OIG investigation into a
                                                                •   Ensure that the correct number of contractor hours
GSA contracting representative's allegation that the con-
                                                                    are provided in future periods.
tractor offered him $200. In return, the employee was to
approve payment on the contractor's claim for work that       We are awaiting the action plans for implementing the
had been submitted to GSA. The OIG then monitored a           recommendations in the report.


                                                                                                                            3
    c.    Significant Preaward Audits                                                  agement services. The audit concluded that the firm's
                                                                                       cost or pricing data were acceptable for negotiation pur-
                                                                                       poses, but inadequate in certain respects.
    The OIG's preaward audit program provides information
    to contracting officers for use in negotiating contracts.                          Our February 29, 1988 audit report advised the contract-
    The pre-decisional, advisory nature of preaward audits                             ing officer that the proposal contained overstated and un-
    distinguishes them from other audits.                                              supported costs. We also advised that use of historical
                                                                                       data, rather than the estimates used by the contractor, re-
                                                                                       sulted in significantly lower costs. The auditors recom-
    $3.9 Million Recommended For Avoidance                                             mended a cost avoidance of $2.4 million in the following
                                                                                       ca tegories: utilities, janitorial services, mechanical
    At the request of a Regional Administrator, the OIG au-
                                                                                       maintenance, and facility management.
    dited three claims for alleged damages due to Govern-
    ment-caused delays on the construction of a Federal                                We are awaiting the contracting officer's position on the
    building. The contractors alleged that change orders and                           questioned costs.
    other Government actions extended the contract work
    period by 299 days, resulting in increased costs of
    $986,219, $1,061,007, and $2,992,301, for a total of
    $5,039,527.                                                                       $868,458 Recommended For Avoidance
    On October 28, 198~ November 25, 198~ and February 24,                            The OIG audited a firm's $1. 7 million proposal for pro-
    1988, we issued audit reports advising the contracting of-                        viding architectural and engineering services relating to
    ficer that costs contained in the claims were either over-                        fire safety and elevator improvements in a Federal build-
    stated or unallowable. The three reports recommended                              ing. The audit determined that the proposed costs were
    reductions of $861,000, $574,000, and $2,499,803 in the                           not based on current, accurate, and complete cost or pric-
    claimed amounts, for a total reduction of $3,934,803.                             ing data. Our February 3, 1988 audit report advised the
    Most of the reductions were in the following categories:                          contracting officer that $868,458 of costs contained in
    labor, labor and material escalation, interest, overhead,                         the proposal were overstated or unallowable. The over-
    and profit.                                                                       stated or unallowable amounts principally related to la-
    The October 28, 1987 and November 25, 1987 reports                                bor and overhead.
    have been resolved and negotiations with the contractors                          We are awaiting the contracting officer's position on the
    are underway. We are awaiting the contracting officer's                           questioned costs.
    position on the questioned costs in the February 24,1988
    report.

    Preaward Recommends $2.4 Million Cost                                             D. Statistical Highlights
    Avoidance
                                                                                      The following table compares OIG activity and accom-
    The OIG evaluated a $10.2 million pricing proposal sub-                           plishments within PBS to the overall GSA totals for the
    mitted in response to a GSA solicitation for facility man-                        period.


                                                     Activity                                                         PBS          All GSA
         Audit Reports Issued ............................................................................... ..       192            405
         Recommended Cost Avoidance ............................................................... .              $58,076,136   $162,836,395
         Recommended Cost Recovery ................................................................ .               $2,853,353     $5,740,161
         Management Commitments to Avoid Costs ............................................ ..                     $23,827,907    $91,161,766
         Management Commitments to Recover Funds ....................................... ..                           $273,180     $4,237,421
         Percentage of Recommended Cost
           Avoidance Agreed to by Management ................................................. ..                      90              86
         Percentage of Recommended Cost
           Recovery Agreed to by Management.. ................................................. ..                    168             88
         Unresolved Audits Older Than 6 Months (Excluding Preawards) ............ ..                                                   1
         Implementation Reviews Finding Unimplemented Recommendations .... ..                                           4              4
         New Investigative Cases .......................................................................... .         103            241
         Criminal Referrals (Subjects) .................................................................. ..           31             66
         Civil Referrals (Subjects) .......................................................................... .        3             11
         Administrative Referrals (Subjects) ......................................................... ..              30             61
         Suspension/Debarment Referrals (Subjects) ........................................... .                       17             54
         Indictments/Informations/Complaints .................. ,............. '" .................... .                2              7
         Successful Criminal Prosecutions ........................................................... ..                2              9
         Civil Settlements/Judgments ................................................................... ..             1              9
4
E. Significant Audits From                                   Energy Conservation in Leased Space

   Prior Reports                                             Period First Reported: April 1, 1986 to September 30, 1986
                                                             This review of energy usage in leased buildings advised
Under GSA's audit resolution system, the OIG is respon-      GSA that, while notable progress had been made in
sible for ensuring resolution of audit recommendations.      identifying and monitoring energy usage problems, addi-
The Audit Resolution and Internal Controls Division,         tional opportunities for energy conservation still existed.
Office of Administration, is responsible for ensuring im-    The OIG made ten recommendations; eight have been
plementation of resolved audit recommendations. That         implemented.
office furnished the following status information.
                                                             The two remaining recommendations involve the instal-
Ten audits highlighted in prior Reports to the Congress      lation of sensor devices and the performance of energy
require action by PBS management before they are fully       conservation building studies. They are scheduled to be
implemented. All ten reports are being implemented in        fully implemented by January 1990 and April 1990,
accordance with currently established milestones.            respectively


Lease Enforcement                                            Fire and Safety Program
Period First Reported: April], 1987 to September 30,1987     Period First Reported: October 1, 1985   to   March 31, 1986
This April 20, 1987 report advised GSA of recurring
                                                             This multiregional review of GSA's Fire and Safety Pro-
maintenance and repair problems in a leased facility The
                                                             gram advised GSA management that, while many signif-
report contained six recommendations; three have been
                                                             icant improvements had been made in the program,
implemented.
                                                             further enhancements were necessary The OIG made
The remaining three recommendations involve: (1) cor-        eight recommendations; seven have been implemented.
rection of potential health hazards, (2) performance of a
                                                             The remaining recommendation involves revisions to the
comprehensive inspection, and (3) correction of exit light
                                                             Fire and Safety Program Handbook. Full implementation
and floor loading problems. Implementation for all three
                                                             is scheduled for April 1988.
is scheduled for June 1988.



Asbestos Hazard in a Federal Complex                         Administration of Cleaning Contracts

Period First Reported: April 1, 1987 to September 30,1987    Period First Reported: October 1, 1985 to March 31, 1986
This review of GSA's purchase of a three-building com-       This OIG review concluded that regional controls over
plex identified possible asbestos hazards in the complex.    cleaning contracts required strengthening. We made
The OIG made seven recommendations; five have been           seven recommendations to correct the identified defi-
implemented.                                                 ciencies; six have been implemented.
The remaining recommendations involve the perfor-            The remaining recommendation involves the collection
mance of an asbestos survey and the development of an        of overpayments to a GSA contractor. On July 14, 1986, a
asbestos abatement plan. They are both scheduled for         demand letter was written and an account receivable was
implementation in May 1988.                                  established in the amount of $137,082. The contractor has
                                                             since filed an appeal with the GSA Board of Contract
                                                             Appeals.

Construction Contract Administration
Period First Reported: April 1, 1987 to September 30, 1987   Excessive Tax Escalation Payments
This review of the construction of a Federal building ad-    Period First Reported: April], 1985 to September 30, 1985
vised GSA management of the need to enforce the re-
quirements for schedules and price breakdowns in             This June 4, 1985 review disclosed that the tax escalation
construction contracts. The OIG made 13 recommenda-          clause contained in GSA leases, coupled with some local
tions; 12 have been implemented.                             taxing practices, resulted in exorbitant Government tax
                                                             escalation payments. The report contained eight recom-
The implementation date for the remaining recommen-
                                                             mendations; six have been implemented.
dation, which involves an Architect and Engineering De-
ficiency Committee determination, is scheduled for June      The two remaining recommendations generally involve
1988.                                                        specific actions to reduce GSA's liability for excessive


                                                                                                                            5
    tax escalation payments. The recommendations were           safety systems in Federal buildings throughout the coun-
    originally scheduled for completion in November 1985        try. The report contained ten recommendations; nine
    and March 1986, respectively. Implementation dates for      have been implemented.
    both recommendations have been renegotiated to June
    1988.                                                       The remaining recommendation, which requires testing
                                                                of emergency control and smoke control systems, is
                                                                scheduled for implementation in August 1989.

    More Improvements Needed in Lease Award
    Procedures
    Period First Reported: October 1, 1984 to March 31, 1985
    This consolidated report identified significant problems    Fire and Life Safety Systems
    adversely affecting lease awards in spite of program im-
    provements implemented by PBS. The report contained         Period First Reported: October 1, 1983 to March 31, 1984
    20 recommendations; 19 have been implemented.               A series of seven OIG reviews identified deficiencies in
    The implementation date for the remaining recommen-         fire and life safety systems in GSA-controlled space. Six
    dation, which involves updating the leasing handbook,       reports were fully implemented in September 1987. The
    has been renegotiated to June 1988.                         remaining report contained four recommendations;
                                                                three have been implemented.
                                                                Implementation of the remaining recommendation,
    Fire and Life Safety Systems                                which involves the installation of a new fire alarm sys-
                                                                tem in a Federal facility, is generally proceeding in accor-
    Period First Reported: Aprij1, 1984 to September 30, 1984   dance with the action plan, although delays have been
                                                                experienced and revised implementation dates have been
    This consolidated report identified the need for GSA ac-    granted. Full implementation is now scheduled for De·
    tion to ensure the proper functioning of fire and life      cember 1988.




6
SECTION III - FEDERAL SUPPLY SERVICE

The Federal Supply Service (FSS) operates a Government-         $43,620 Civil Settlement
wide service and supply system that contracts for and
distributes billions of dollars worth of supplies, mate-        On November 19, 1987, a GSA medical equipment sup-
rials, and services for customer agencies each year. In the     plier agreed to pay the Government $43,620 to settle po-
first half of FY 1988, FSS obligated approximately              tential civil fraud issues. The Government alleged that
$44 million in direct operating expense appropriations.         the supplier failed to provide accurate and complete pric-
Estimated sales through the General Supply Fund during          ing data to GSA contracting officials.
the same period were almost $1.2 billion.
                                                                A joint OIG audit and investigation disclosed that the
                                                                firm sold items to its commercial customers at discounts
                                                                greater than those offered to GSA. Failure to disclose
A. Overview of OIG Activity                                     these discounts violated the price reduction/defective
                                                                pricing clauses in its GSA contract.
This period, OIG audit coverage of FSS primarily focused        The matter was referred to the Office of the U.S. Attorney,
on contracting activities, particularly preaward audits of      which declined criminal prosecution, and the U.S. De-
multiple award schedule contracts. We issued III con-           partment of Justice, which accepted the case for civil lit-
tract audit reports recommending $48.2 million in cost          igation. The settlement agreement was negotiated by
avoidances and $2.3 million in recoveries. Notably, two         attorneys in the Department of Justice Civil Division
OIG preawards highlighted this period resulted in man-          and the GSA OIG.
agement commitments to avoid $7 million.
In a series of internal audit reports issued this period, the
OIG presented findings in a variety of FSS program areas,
including customer supply center operations, commod-            False Claims Convictions
ity center activities, and contract administration.
                                                                On March 30, 1988, a U.S. District Court jury found a
Joint OIG audit and investigative work resulted in both a       hardware supply company, and its president and vice-
$43,620 civil fraud settlement and convictions of a firm        president, guilty of violations of the False Claims Act.
and its president for submitting false claims. The settle-      The defendants were ordered to pay penalties totaling
ment stemmed from the ~IG's disclosure that a medical           $604,000 to the Government.
equipment contractor violated the price reduction/defec-
tive pricing clauses in its GSA contract. The convictions       The court action stemmed from an OIG investigation in-
resulted from OIG disclosure that a partition supplier          itiated when a GSA quality assurance specialist alleged
falsified laboratory test results to obtain a GSA contract.     that the company was not complying with the Buy Amer-
                                                                ican Act clauses in its GSA contracts. The investigators
The OIG completed 57 investigative cases involving FSS          found that the firm purchased and used foreign-made
programs, operations, or employees. Notably, one inves-         steel, rather than contractually required domestic steel,
tigation resulted in the conviction of a firm, and its pres-    when manufacturing hacksaw blades being sold to the
ident and vice-president, for violations of the False           Government. The firm then falsely certified to GSA that
Claims Act. The firm falsely certified to GSA that do-          the blades were made with domestic products and at-
mestic steel was used in the manufacture of hacksaw             tempted to conceal the actual source of the steel by re-
blades sold to Federal agencies.                                moving shipping labels and destroying containers.
Another investigation, conducted jointly with the De-
fense Criminal Investigative Service, resulted in the con-
viction of a co-owner of a freight hauling company. for         Customer Supply Center Operations
mail fraud. The company billed GSA for items that were
never delivered.                                                This period, the OIG completed an evaluation of the op-
                                                                erations at a Customer Supply Center (CSC). The review
                                                                found that, while the CSC was generally meeting its mis-
                                                                sion of supplying customers with common-use, high-
B. Significant Audits and                                       demand items, several operational and procedural areas
                                                                require attention.
   Investigations
                                                                The OIG found, for example, that inventory stock levels
This section summarizes significant internal and post-          were not properly maintained, stock-on-hand quantities
award audits and investigations dealing with FSS. Sig-          differed from inventory records, and a required shelf life
nificant preaward contract audits are presented in              program had not been established. As a result, some
Section C.                                                      needed customer items were out-of-stock while others



                                                                                                                              7
    were overstocked, inventory records could not be relied       investigation disclosed falsification of delivery docu-
    upon, and the inventory included expired stock.               ments relating to a freight hauling contract held with
                                                                  GSA and the Department of Defense. GSA relied upon
    In our report issued December 9, 1987, the OIG directed       the falsified delivery documents and made payments to
    27 recommendations to the Regional Administrator to
                                                                  the firm for items that were never delivered.
    correct identified deficiencies. These included recom-
    mendations to:                                                Previously, the other co-owner of the firm had also pled
                                                                  guilty to charges of mail fraud and submissions of false
      •   Maintain and use accurate inventory reports to          statements. In September 1987, he was sentenced to 3
          properly assess stock levels.
                                                                  years probation and fined $100.
      •   Reconcile out-of-balance reports, conduct wall-to-
          wall inventories, and reconcile daily transactions to
          computer reports.
      •   Establish procedures for managing shelf life items.
    The Regional Administrator generally concurred with
                                                                  c.    Significant Preaward Audits
    the recommendations in the draft report. We are awaiting      The OIG's preaward audit program provides information
    the action plans for implementing the recommendations.        to contracting officers for use in negotiating contracts.
                                                                  The pre-decisional, advisory nature of preaward audits
                                                                  distinguishes them from other audits.
    Partitions Supplier Convicted
    On December 4, 1987, a GSA partitions firm and its pres-      $5.1 Million Cost Avoidance
    ident were sentenced in U.S. District Court after being
    convicted of conspiracy, submitting false claims, and         The OIG evaluated discount schedule and marketing
    preparing false statements. The company and its presi-        data submitted in response to a GSA solicitation for the
    dent were each fined $365,000 and the president was sen-      purchase, lease-to-ownership, rental, and maintenance of
    tenced to 9 years in prison (5 years suspended) and 5 years   office photographic equipment. Estimated sales under
    probation.                                                    the contract are $94.6 million.
    The sentencing resulted from an OIG investigation ini-        Our October 7, 1987 audit report advised the contracting
    tiated after an OIG preaward audit detected evidence of       officer of discounts, not disclosed in the firm's offer, that
    false claims and statements, possible income tax viola-       exceeded those offered to GSA. We further advised that
    tions, and bribery of Government officials. The subse-        the rental per copy charges offered to the Government for
    quent OIG investigation uncovered evidence that the           some models were higher than those for commercial ac-
    contractor had falsified laboratory test results to obtain    counts. As a result, the auditors recommended cost
    its GSA contract. Independent laboratory tests confirmed      avoidances totaling $5.1 million.
    that partitions sold to Federal agencies contained a cheap,
    flammable cardboard filler, rather than the fire retardant    The contracting officer negotiated the contract and ob-
    material specified in the contract. As a result of the in-    tained $5.1 million in pricing concessions.
    vestigation, GSA officials cancelled the contract and sus-
    pended the supplier from receiving future Government
    contracts.
                                                                  Preaward Questions $5.3 Million of Proposed
    Further investigation revealed that contractor irregular-     Cost
    ities affected contracts held with the Small Business
    Administration (SBA) and the U.S. Air Force. A joint in-      The OIG evaluated discount schedule and marketing
    vestigation with the SBA OIG, the Air Force Office of         data submitted in response to a GSA solicitation for the
    Special Investigations, and the Defense Contract Audit        purchase of detergent products. Estimated sales under
    Agency found that the firm had defrauded a total of           the contract are $21.1 million.
    $3 million from the Government.
                                                                  Our January 27, 1988 audit report advised the contracting
                                                                  officer that discounts offered to commercial customers
                                                                  exceeded the best discounts offered to GSA. Although
    Freight Hauler Convicted                                      the firm's offer disclosed these commercial discounts,
                                                                  the rationale for not offering GSA equal discounts was
    On February 10, 1988, a co-owner of a transportation firm     considered to be flawed. Based on the sales volume as
    was sentenced in U.S. District Court after pleading           well as the terms and conditions offered to other cus-
    guilty to mail fraud and submitting false claims. He was      tomers, the report advised the contracting officer to seek
    sentenced to 2 years probation, fined $50, and ordered to     discounts equal to the best commercial customer in the
    make restitution of $846.                                     same category. Accordingly, the auditors recommended a
                                                                  cost avoidance of $5.3 million.
    The conviction stemmed from a joint GSA OIG and De-
    fense Criminal Investigative Service investigation. The       Negotiations with the contractor are currently underway.

8
$4.3 Million Cost Avoidance Recommended                                            the proposed contract would bill Government customers
                                                                                   for installation. As a result, the auditors recommended
The OIG evaluated a pricing proposal submitted in re-                              cost avoidances totaling $3.8 million.
sponse to a GSA solicitation for the purchase of lamps,                            We are awaiting the contracting officer's position on the
electric ballasts, and starters. Estimated sales under the                         questioned costs.
contract are $14.3 million.
In our December 24, 1987 audit report, we advised the
contracting officer that the firm's discount and market-
ing data did not properly disclose discounts offered                               $1.9 Million Avoidance Through Preaward Audit
to commercial customers and that these discounts
exceeded the best discounts offered to GSA Accord-                                 On February 19, 1988, a GSA contracting officer negoti-
ingly, the auditors recommended a cost avoidance of                                ated pricing concessions totaling $1.9 million on a con-
$4.3 million.                                                                      tract with a laboratory equipment firm. The successful
                                                                                   negotiations stemmed from an OIG audit of the firm's
We are awaiting the contracting officer's position on the                          $9.3 million pricing proposal for laboratory instruments
questioned costs.                                                                  and equipment.
                                                                                   The September 9, 1987 audit report advised the contract-
                                                                                   ing officer that discounts offered to commercial cus-
Preaward Questions. $3.8 Million of Proposed                                       tomers were not accurately disclosed in the firm's
Cost                                                                               proposal and that these discounts exceeded the best dis-
                                                                                   counts offered to GSA We also advised that the firm did
The OIG evaluated a pricing proposal submitted in re-                              not disclose several multiple purchase programs and
sponse to a GSA solicitation for the purchase of visible re-                       package deals that it offers to commercial customers.
cord equipment. Estimated sales under the contract are                             Based on these findings, the report recommended a
$24.1 million.                                                                     $1.9 million cost avoidance.

Our January 28, 1988 audit report advised the contract-
ing officer that discounts offered to commercial cus-
tomers were not accurately disclosed in the firm's offer.                          D. Statistical Highlights
We also advised that, in our opinion, the firm's rationale
for offering higher discounts to dealers and wholesalers                           The following table compares OIG activity and accom-
was not justified. We further noted that the current con-                          plishments within FSS to the overall GSA totals for the
tract provides for free installation of some items while                           period.



                                                 Activity                                                          FSS         All GSA

     Audit Reports Issued ................................................................................ .       127            405
     Recommended Cost Avoidance ............................................................... .              $48,227,794   $162,836,395
     Recommended Cost Recovery ................................................................ .               $2,338,116     $5,740,161
     Management Commitments to Avoid Costs ............................................ ..                     $37,525,610    $91,161,766
     Management Commitments to Recover Funds ........................................ .                           $121,308     $4,237,421
     Percentage of Recommended Cost
       Avoidance Agreed to by Management ................................................. ..                      77              86
     Percentage of Recommended Cost
       Recovery Agreed to by Management .................................................... .                      15            88
     Unresolved Audits Older Than 6 Months (Excluding Preawards) ............. .                                                   1
     Implementation Reviews Finding Unimplemented Recommendations .... ..                                                          4
     New Investigative Cases ......................................................................... ..          87            241
     Criminal Referrals (Subjects) ................................................................... .           24             66
     Civil Referrals (Subjects) .......................................................................... .        8             11
     Administrative Referrals (Subjects) .......................................................... .              16             61
     Suspension/Debarment Referrals (Subjects) ........................................... .                       34             54
     Indictments/Informations/Complaints ....................................................... .                  4              7
     Successful Criminal Prosecutions ........................................................... ..                6              9
     Civil Settlements/Judgments .................................................................... .             8              9




                                                                                                                                               9
     E. Significant Audits From Prior                        Contracting Officer Training

        Reports                                              Period First Reported: April 1, 1987 to September 30, 1987
                                                             This OIG review of compliance with the training re-
 Under GSA's audit resolution system, the OIG is respon-     quirements of the Contracting Officer Warrant Program
 sible for ensuring resolution of audit recommendations.     (COWP) advised management that many contracting of-
 The Audit Resolution and Internal Controls Division,        ficers had not completed mandatory training courses.
 Office of Administration, is responsible for ensuring im-   The report contained five recommendations; four have
 plementation of resolved audit recommendations. That        been implemented.
 office furnished the following status information.
                                                             The remaining recommendation requires the develop-
 One significant audit from a prior Report to the Congress   ment of written operating procedures to assist in man-
 is not implemented. It is being implemented in accor-       aging the COWP. Full implementation is scheduled for
 dance with currently established milestones.                June 1988.




10
SECTION IV-INFORMATION RESOURCES
MANAGEMENT SERVICE

The Information Resources Management Service (IRMS)         OIG auditors found that the firm sold items to its com-
coordinates and directs a comprehensive Government-         mercial customers during the contract period at dis-
wide program for managing and procuring automated           counts higher than those disclosed to GSA during
data processing (ADP) and telecommunications equip-         negotiations and without offering equivalent discounts
ment and services. In the first half of FY 1988, IRMS ob-   to Government purchasers. GSA contracts specifically
ligated an estimated $13 million in direct operating        provide that the Government is entitled to equivalent
expense appropriations. Estimated sales through the In-     price reductions if, after negotiations, the contractor re-
formation Technology Fund during the same period were       duces its discounts or grants special discounts to other
over $484 million.                                          customers.
                                                            Relative to the overbillings, the auditors found that the
                                                            firm did not always adjust prices to reflect required dis-
                                                            counts for field service visits. Consequently, Government
A. Overview of OIG Activity                                 purchasers overpaid the contractor for services received.
This period, OIG audit coverage of IRMS continued to        In the July I, 1987 and August 4, 1987 audit reports, the
emphasize contracting activities, particularly preaward     auditors recommended cost recoveries of $410,008 and
audits of multiple award schedule contracts. We issued      $368,175, respectively
49 contract audit reports recommending $51 million in
cost avoidances and $548,692 in recoveries. Notably, two
OIG preawards highlighted this period resulted in man-
agement commitments to avoid $23.2 million. Addition-       Security at a Computer Facility
ally, two OIG postaward audits resulted in the recovery
of $778,183.                                                An OIG review of a Federal computer facility disclosed
                                                            that improvements in security and fire safety were nec-
Internal coverage of IRMS programs and functions fo-        essary to adequately protect personnel, equipment, and
cused on reviews of computer facilities. A series of re-    sensitive data. We identified problems in the areas of fire
ports assisted management in ensuring adequate levels of    safety, access controls, and environmental safeguards.
security and fire safety For example, we found that per-    We concluded that these problems might have been de-
imeter walls and doors at one facility did not meet es-     tected and corrected if responsibility for facility security
tablished fire safety standards, and required fire          had been separate from responsibility for facility opera-
extinguishers had not been installed.                       tions, and if required reviews of system security officer
                                                            activities had been performed.
OIG investigators completed 8 cases this period involv-
ing IRMS programs, operations, and employees; most in-      The review found that: perimeter walls and doors did not
volved white collar crimes.                                 meet established fire safety standards; emergency lights
                                                            were not functioning; required fire extinguishers were
                                                            not installed; and noncombustible waste containers were
                                                            not used. In addition, access to both the computer facility
B. Significant Audits                                       and to areas within the facility was not limited to au-
                                                            thorized personnel. Finally, we found that the facility did
This section summarizes significant internal and post-      not have the safeguards needed to prevent data loss and
award audits dealing with IRMS operations. Significant      equipment damage in the event of severe temperature
preaward contract audits are presented in Section C.        and humidity changes.
                                                            Our February 29, 1988 audit report recommended that
                                                            the Assistant Regional Administrator, Information Re-
                                                            sources Management Service:
Management Commitment to Recover $778,183
                                                              4»   Appoint a system security officer who is indepen-
On January 27, 1988, an IRMS contracting officer nego-             dent of facility operations management.
tiated the recovery of $778,183 from a multiple award         •    Require the system security officer to document
schedule supplier of ADP equipment. The recovery re-               security inspections.
sulted from two OIG postaward audits disclosing that
the contractor violated the price reduction clause in its     4»   Correct the security and fire safety deficiencies
GSA contracts and overbilled contract users.                       identified in the report.



                                                                                                                           11
     Additionally, we recommended that the Assistant Re-             not meet the test of commerciality Accordingly, the au-
     gional Administrator for Administration ensure that the         ditors recommended a cost avoidance of $4.7 million.
     regional systems security coordinator perform required
     periodic reviews of the system security officer's activities.
     Management concurred with the recommendations in                $7 Million Cost Avoidance Recommended
     the draft report. We are awaiting the action plans for im-
     plementing our recommendations.                                 The OIG evaluated discount schedule and marketing
                                                                     data submitted in response to a GSA solicitation for the
                                                                     purchase, repair, and maintenance of data processing and
                                                                     office information systems equipment and software. Our
     c.    Significant Preaward Audits                               review focused on the maintenance portion of the con-
                                                                     tract, which represents $75 million of the total $507 mil-
     The OIG's preaward audit program provides information           lion in estimated sales under the contract.
     to contracting officers for use in negotiating contracts.       The audit disclosed that the firm's offer did not clearly
     The pre-decisional, advisory nature of preaward audits          portray the extent of the pricing concessions granted to
     distinguishes them from other audits.
                                                                     other customers. The firm maintained that no discounts
                                                                     were given for normal maintenance, and that a relatively
                                                                     small percentage of sales to customers fall under a spe-
     $18.5 Million Avoidance Through Preaward                        cial bid arrangement whereby customers assume certain
                                                                     maintenance functions in exchange for lower prices. Our
     Audit                                                           sample review of sales transactions, however, found that
                                                                     the special bid arrangement discounts were granted for
     On January 25, 1988, GSA management avoided expendi-            37 percent of these transactions.
     tures of $18.5 million after successfully negotiating pric-
     ing concessions in that amount from an ADP equipment            In our December 22, 1987 audit report, we advised the
     firm. The avoidance stemmed from an OIG audit of the            contracting officer of these facts. The auditors recom-
     firm's $180 million pricing proposal in response to a GSA       mended a cost avoidance of $7 million.
     solicitation for ADP equipment and software.
                                                                     The contracting officer successfully negotiated the con-
     In our October IS, 1987 audit report, we advised the con-       tract and obtained $ 7 million in pricing concessions.
     tracting officer that discounts offered to commercial cus-      (Note: The $7 million management commitment is not
     tomers were not accurately disclosed in the firm's
                                                                     included in our data for this period because of notifica-
     proposal and that these discounts exceeded the best
                                                                     tion delaysj it will be included in our next Report to the
     discounts offered to GSA. The report recommended a
                                                                     Congress.)
     $12.7 million cost avoidance. A subsequent upward re-
     vision in the estimated contract sales led to the increased
     cost avoidance amount.
                                                                     $5.2 Million Recommended For Avoidance
                                                                     The OIG evaluated a $29.8 million cost or pricing pro-
     $4.7 Million Cost Avoidance                                     posal submitted in response to a GSA solicitation for
                                                                     technical assistance and management services relating
     On February 29, 1988, management avoided $4.7 million           to telecommunications. The proposal was for a five-year
     in costs by successfully negotiating pricing concessions
                                                                     contract period.
     in that amount from a communications equipment con-
     tractor. The action stemmed from an OIG preaward audit          Our March 31, 1988 audit report advised the contracting
     of the firm's $37 million pricing proposal for the pur-         officer that the cost or pricing data contained in the
     chase of communications equipment.                              firm's proposal were overstated or unallowable. The au-
                                                                     ditors recommended a cost avoidance of $5.2 million,
     Our July 15,1987 audit report advised the contracting of-       principally in the following categories: direct labor, non-
     ficer that discounts offered to GSA were substantially          productive labor, benefits, bid/proposal expenses, and
     lower than those offered to commercial customers. This
                                                                     overhead.
     type of contract entitles GSA to discounts at least equal
     to the best commercial customer in the same category            We are awaiting the contracting officer's position on the
     We also advised that several of the offered products did        questioned costs.




12
Preawards Question $1.4 Million of Proposed                                       and that these discounts exceeded the best discounts of-
Cost                                                                              fered to GSA. Accordingly, the auditors recommended
                                                                                  cost avoidances totaling $1.4 million.
The OIG evaluated discount schedule and marketing                                 We are awaiting the contracting officer's position on the
data submitted in response to GSA solicitations for the                           questioned costs.
purchase, rental, and maintenance of general purpose
ADP equipment and software, and for the purchase and
maintenance of microcomputers and related software.
Estimated sales under the contracts are $5.6 million and
$4.7 million, respectively                                                        D. Statistical Highlights
Our December 7, 1987 audit reports advised the contract-                          The following table compares OIG activity and accom-
ing officer that discounts offered to commercial cus-                             plishments within IRMS to the overall GSA totals for the
tomers were not accurately disclosed in the firm's offers                         period.



                                                 Activity                                                         IRMS         All GSA

     Audit Reports Issued ............................................................................... ..        54            405
     Recommended Cost Avoidance ............................................................... .              $51,292,915   $162,836,395
     Recommended Cost Recovery ................................................................ .                 $548,692     $5,740,161
     Management Commitments to Avoid Costs ............................................. .                     $29,519,057    $91,161,766
     Management Commitments to Recover Funds ........................................ .                           $801,968     $4,237,421
     Percentage of Recommended Cost
       Avoidance Agreed to by Management .................................................. .                      97                86
     Percentage of Recommended Cost
       Recovery Agreed to by Management... ................................................. .                    100                88
     Unresolved Audits Older Than 6 Months (Excluding Preawards) ............. .                                     1                1
     Implementation Reviews Finding Unimplemented Recommendations ..... .                                                             4
     New Investigative Cases .......................................................................... .           23              241
     Criminal Referrals (Subjects) .................................................................. ..            11               66
     Civil Referrals (Subjects) .......................................................................... .                         11
     Administrative Referrals (Subjects) .......................................................... .                3               61
     Suspension/Debarment Referrals (Subjects) ........................................... .                                         54
     Indictments/Informations/Complaints ...................................................... ..                   1                7
     Successful Criminal Prosecutions ............................................................ .                 1                9
     Civil Settlements/Judgments .................................................................... .                               9



E. Significant Audits From                                                        Telecommunications Systems Management

   Prior Reports                                                                  Period First Reported: October 1, 1985      to   March 31, 1986
Under GSA's audit resolution system, the OIG is respon-
sible for ensuring resolution of audit recommendations.
The Audit Resolution and Internal Controls Division,                              This OIG review concluded that IRMS needed to
Office of Administration, is responsible for ensuring im-                         strengthen its oversight role relative to Government
plementation of resolved audit recommendations. That                              telecommunications systems. We made 12 recommen-
office furnished the following status information.                                dations; 11 have been implemented.

One IRMS audit highlighted in a prior Report to the
Congress has not been fully implemented. It is being im-                          The remaining recommendation, which involves the
plemented in accordance with currently established                                development and issuance of technical manuals, is
milestones.                                                                       scheduled for full implementation in September 1988.




                                                                                                                                                    13
     SECTION V -OTHER GSA COVERAGE

     Other GSA services and staff offices, such as the Federal   tem of internal controls was generally sufficient to assure
     Property Resources Service, the Office of the Comptrol-     compliance, some controls require strengthening.
     ler, and the Office of Administration, comprised the fo-
     cus for the remainder of the OIG's efforts this period.    We found that payment procedures for utility payments
                                                                did not incorporate OMB Circular A-125 cash manage-
                                                                ment requirements, resulting in some early payments.
                                                                We also identified instances when potential savings are
     A. Overview of OIG Activity                                being missed because prompt payment discount terms
                                                                for certified invoices were not being consistently entered
     OIG coverage of the Federal Property Resources Service, into the payment system. Further, we concluded that the
     the Office of the Comptroller, the Office of Administra- . center's decision to exclude manual payments from the
     tion, and other GSA organizations consisted primarily of statistical sampling process may adversely affect the in-
     internal management reviews. These reviews resulted in tegrity of the data reported to OMB. Finally, we noted
     findings and recommendations in areas such as payment that the center may not always be making payments
     procedures, printing operations, real property disposal, within the correct payment period, since multiple re-
     and imprest funds. The OIG also provided extensive ceipt dates were stamped on some invoices.
     technical assistance and advice relative to implementa- Our March 31, 1988 report recommended that the As-
     tion of the Federal Managers' Financial Integrity Act sistant Regional Administrator for Administration re-
     (FMFIA).                                                   quire that:
     Two especially noteworthy reviews advised management          * Sound cash management procedures, incorporat-
     of the need to:                                                  ing OMB Circular A -125 requirements, be devel-
        * Strengthen controls over payments to contractors.           oped and implemented for utility payments.
       *   Improve GSA's process for implementing Section 4        41&   Prompt payment discount terms for certified in-
           of the FMFIA.                                                 voices be entered into the payment system.
     In addition, a series of reviews evaluating imprest funds     41&   Manual payments be included in the statistical
     aided management in taking action to improve internal               sampling process for prompt payment reporting
     controls and physical security safeguards. Our recom-               purposes.
     mendations to reduce the cash level maintained should         41&   Procedures for establishing payment start dates be
     help prevent misuse of the funds.                                   reviewed with the accounting technicians.
     The OIG also completed 35 investigations involving the      We are awaiting the action plans for implementing the re-
     personnel, programs, and operations in these GSA areas.     port recommendations.


     B. Significant Audits
     This section summarizes significant internal audits in-     Federal Managers' Financial Integrity Act
     volving the programs and operations of the remaining
     GSA services and staff offices.                             This period, the OIG completed an evaluation of GSA's
                                                                 process for fulfilling the requirements of OMB Circular
                                                                 A-127 and Section 4 of the Federal Managers' Financial
                                                                 Integrity Act. We concluded that GSA continued to make
     Prompt Payment Act                                          improvements in its methods and procedures for the an-
                                                                 nual review of its accounting systems. Notably, compre-
     The Prompt Payment Act requires Federal agencies to         hensive guidelines for performing detailed systems
     make payments on time, pay interest penalties for late      reviews have been developed. However, we noted that cer-
     payments, and take discounts only within the discount       tain aspects of the overall review process still require
     period. The Office of Management and Budget (OMB)           attention.
     Circular A -125 prescribes policy guidance on imple-
                                                                 Our evaluation determined that the detailed reviews of
     menting the Act.
                                                                 the accounting system did not comply with OMB Cir-
     TheOIG completed an evaluation of the policy and pro-       cular A-127 requirements, since they did not trace trans-
     cedures used by a GSA regional finance center, which        actions from inception, through the system, to
     maintains responsibility for the Public Buildings Service   presentation in the Agency's financial statements. We
     and Information Resources Management Service funds,         also found that GSA's inventory of financial manage-
     to assure compliance with the Act and OMB Circular          ment systems was not complete and, therefore, all sys-
     A-125. The review concluded that, while the center's sys-   tems might not be reviewed over a 5-year period.
14
Our March 31, 1988 report recommended that the Comp-                              cash counts not performed; and cash counts performed
troller require the Deputy Comptroller for Financial                              by the fund cashier. The physical security problems,
Management Systems to assure that: (1) detailed reviews                           found at six fund sites, included: armed escorts not used
of GSA's financial management systems include tests of                            to reduce the risk of in-transit theft; lack of "bait"
transactions from initiation to reporting, and (2) a com-                         money in the cash drawer for identification in the event
plete inventory of Agency financial management systems                            of theft; and the safe combination not regularly changed.
is developed.                                                                     Finally, the amount of cash maintained in two funds
                                                                                  exceeded the amounts necessary to cover normal
The Deputy Comptroller for Financial Management Sys-                              disbursements.
tems concurred with the recommendations in our draft
report. We are awaiting the action plans for implementing                         In ten reports issued this period, the OIG offered rec-
the recommendations.                                                              ommendations to correct these and other deficiencies.
                                                                                  Eight of these reports are resolved; we are awaiting action
                                                                                  plans for the other two reports.
Imprest Funds
OIG reviews of ten imprest funds in four GSA regions
disclosed weaknesses in internal controls, inadequate
physical safeguards, and unnecessarily high cash levels.
                                                                                  c.       Statistical Highlights
Internal control weaknesses, identified in four funds, in-                        The following table compares OIG activity and accom-
cluded: expenditures without proper approval, disburse-                           plishments in other GSA areas to the overall GSA totals
ments for unauthorized expenditures; unannounced                                  for the period.



                                                 Activity                                                      Other GSA       All GSA

     Audit Reports Issued .................................................................................         32            405
     Recommended Cost Avoidance ............................................................... .               $5,239,550   $162,836,395
     Recommended Cost Recovery ................................................................ .                              $5,740,161
     Management Commitments to Avoid Costs ............................................ ..                        $289,192    $91,161,766
     Management Commitments to Recover Funds ........................................ .                         $3,040,965     $4,237,421
     Percentage of Recommended Cost
       Avoidance Agreed to by Management .................................................. .                     100              86
     Percentage of Recommended Cost
       Recovery Agreed to by Management... ................................................. .                    100             88
     Unresolved Audits Older Than 6 Months (Excluding Preawards) ............. .                                                   1
     Implementation Reviews Finding Unimplemented Recommendations ..... .                                                          4
     New Investigative Cases ...........................................................................           28            241
     Criminal Referrals (Subjects) ................................................................... .                          66
     Civil Referrals (Subjects) .......................................................................... .                      11
     Administrative Referrals (Subjects) .......................................................... .               12            61
     Suspension/Debarment Referrals (Subjects) ........................................... .                         3            54
     Indictments/Informations/Complaints ....................................................... .                                 7
     Successful Criminal Prosecutions ............................................................ .                               9
     Civil Settlements/Judgments .................................. '" '" ............................ .                           9



D. Significant Audits From                                                        Federal Managers' Financial Integrity Act

   Prior Reports                                                                   Period First Reported: April 1, 1987 to September 30, 1987
Under GSA's audit resolution system, the OIG is respon-
sible for ensuring resolution of audit recommendations.                           This OIG review concluded that GSA's review and eval-
The Audit Resolution and Internal Controls Division,                              uation process for implementing Section 2 of the Federal
Office of Administration, is responsible for ensuring im:                         Managers' Financial Integrity Act has improved signifi-
plementation of resolved audit recommendations. That                              cantly, but could not yet be relied upon as the primary
office furnished the following status information.                                basis for reporting. The report contained five recommen-
                                                                                  dations; four have been implemented.
With regard to GSA services and staff offices other than
PBS, FSS, and IRMS, only one significant audit from a
prior Report to the Congress is not implemented. It is                            The remaining recommendation requires updating the
being implemented in accordance with currently estab-                             Management Control Improvement Program Handbook.
lished milestones.                                                                It is scheduled for implementation in December 1988.
                                                                                                                                                15
     SECTION VI-STATISTICAL SUMMARY OF OIG
     ACCOMPLISHMENTS

     The previous sections of this report presented OIG           Based on audit reports issued in this and prior periods,
     activity and accomplishments by GSA service and staff        management committed itself to use $91,161,766 more ef-
     office. In the pages that follow, overall OIG accomplish-    ficiently and to recover $4,237,421. This latter figure in-
     ments are comprehensively reported. To facilitate cross-     cludes $262,044 resulting from efforts that involved OlG
     referencing, the GSA organizational orientation is           audit, investigative, and legal collaboration.
     maintained in these summary statistics. However, there is
     not a one-to-one correspondence between the data re-         The OIG opened 241 investigative cases and closed 175.
     ported by GSA organization and the overall statistics, be-   We referred 37 cases (66 subjects) for criminal prosecu-
     cause a portion of our work involved non-GSA operations.     tion, 9 cases (11 subjects) for civil litigation, and 15 cases
                                                                  for further investigation by other Federal or State agen-
                                                                  cies. Based on these and prior referrals, 14 cases (18 sub-
                                                                  jects) were accepted for criminal prosecution and 4 cases
                                                                  (5 subjects) were accepted for civil litigation.
                                                                  Criminal cases originating from OIG referrals resulted
                                                                  in 6 indictmentslinformations and 9 successful prose-
     A. OIG Accomplishments                                       cutions. OIG civil referrals resulted in a civil fraud com-
                                                                  plaint, 6 settlements, and 3 judgments. These actions
     During the reporting period, the OIG issued 405 audit re-    resulted in determinations that $1,218,954 is owed the
     ports, including 20 performed for the OIG by another         Government. Through investigations, we also identified
     agency. These reports contained financial recommenda-        for recovery money/property worth $422,256. These
     tions totaling $168,576,556, including $162,836,395 in       monetary figures include $262,044 also reported under
     recommendations for more efficient use of resources          management commitments to recover funds, since they
     (cost avoidance) and $5,740,161 in recommendations for       resulted from collaborative efforts involving OIG audi-
     the recovery of funds.                                       tors, investigators, and attorneys.




16
We referred 72 cases to GSA management for administra-
tive action. This total includes 17 case referrals (54 sub-
                                                                   B. Summary Statistics
jects) for suspension/debarment and 55 case referrals (61
subjects) for other administrative actions. Based on these
and prior referrals, management debarred 27 contractors,           1. Audit Reports Issued
suspended 9 contractors, reprimanded 15 employees, sus-
pended 3 employees, demoted 2 employees, and termi-                Table 1 summarizes OrG audit reports issued this period
nated 6 employees.                                                 by GSA program area. The table includes 20 audits, rec-
                                                                   ommending a total cost avoidance of $20,251,192, which
The following subsection presents detailed information             were performed for the GSA OIG by the Defense Contract
on these and other quantifiable accomplishments.                   Audi t Agency.



                                              Table 1.   Summary of OIG Audits
                                                         Percentage          Recommended             Recommended
                   GSA                       Reports      of Total               Cost                    Cost
                 Program                     Issued        Audits              Avoidance               Recovery

     PBS
     -Internal ...........................      78                              $ 19,800,000           $2,496,366
     -Contract. .........................      114
                                              -~.-
                                                                                 " 38,276, 13~            356,987
                                                                                                        "---
                                               192           48                 $ 58,076,136           $2,853,353

     FSS
     -Internal ...........................     16                               $                      $ 19,258
     -Contract.. ........................     111                                 48,227,794
                                                                                    ~--------
                                                                                                        2,318,8_58
                                              127            31                 $ 48,227,794           $2,338,116

     IRMS
     -Internal ...........................        5                             $                      $
     -Contract. .........................      49
                                               ---_.
                                                                                  51,292,915
                                                                                    -~~-
                                                                                                         548,692
                                                                                                        -------
                                               54             13                $ 51,292,915           $ 548,692

     Other GSA
     -Internal ...........................     30                               $                      $
     -Contract. .........................       2                                  5,239,550
                                                                                 --------_.-            -"-_.-

                                               32             8                 $ 5,239,550            $

     TOTAL ...............................    405            100                $162,836,395           $5,740,161
     TOTAL COSTS
     RECOMMENDED ..............               $168,576,556




                                                                                                                             17
     2. Audit Reports Resolved                                                    due-a statistic that reflects creditably on GSA's audit
                                                                                  resolution efforts.
     Table 2 summarizes the universe of audits to be resolved
     by the OIG and GSA management during this period, as                         It should be noted that Table 2 does not include reports
     well as the status of those audits as of March 31, 1988.                     excluded from the resolution system because they per-
     Sixty-one reports more than 6 months old were unre-                          tain to ongoing investigations. As of March 31, 1988,36
     solved as of March 31, 1988 i but 60 of them were preaward                   reports (3 issued this period, 33 issued in prior periods)
     audits, which are not subject to the 6-month resolution                      had been excluded from the resolution system for the lat-
     requirement. Thus, only one report was actually over-                        ter reason.




                                                   Table 2.           Resolution of OIG Audits
                                                                                       Reports With                     Total
                                                                       No. of            Financial                    Financial
                                                                      Reports        Recommendations               Recommendations

          Unresolved as of 10/1/87
          -Less than 6 months old ......................... .           144                  110                      $ 72,015,900
          -More than 6 months old ......................... .            47                   42                        15,259,057
          Reports issued this period ....................... ..         402
                                                                        -
                                                                                             214                       168,228,336
                                                                                                                            -
                                                                                                                       ------   --------



          TOTAL TO BE RESOLVED ...................... .                 593                  366                      $255,503,293

          Reports resolved
          -Issued prior periods ............................... .           130                    97                 $ 55,569,509
          -Issued current period ........................... ..         ~-
                                                                            170              ~~"
                                                                                                   78
                                                                                                   --
                                                                                                                       . §!,~§5,~~Z
          TOTAL RESOLVED ................................ ..            300                  175                      $116,834,976

          Unresolved as of 3/31/88
          --Less than 6 months old ......................... .          232                  136                      $106,962,869
          -More than 6 months old
            -Preaward ........................................... .         60                     54                    30,179,151
            -Postaward ......................................... .           1
                                                                            --
                                                                                                    1                  ___ !,~?(),_2~!
          TOTAL UNRESOLVED ............................ .               293                  191                      $138,668,317




18
3. Resolution Decisions on Financial                                                  audit resolution process. In fact, in a number of individ-
                                                                                      ual cases, contracting officers resolved to seek savings in
   Recommendations                                                                    excess of the amounts recommended by the OIG.
                                                                                      In accordance with GSA Order ADM 2030.2A, resolu-
                                                                                      tion decisions on financial recommendations contained
                                                                                      in contract audit reports result in resolved cost avoidance
Table 3 provides detailed information on the 175 reports                              or recovery. Management commitments occur subse-
involving financial recommendations of $116,834,976                                   quently, at the time of contract settlement. For internal
that are identified in Table 2 as being resolved this period.                         audits, management commitments occur at the time of
Notably, $103,139,178 or over 88 percent was upheld in the                            resolution.



                                       Table 3.        Resolution Decisions on OIG Audits
                                                       Recommended                          Resolved             Recommended                    Resolved
                        GSA                                Cost                               Cost                   Cost                         Cost
                      Program                           Avoidance                           Avoidance              Recovery                     Recovery

     PBS
     -Internal ................................... .    $ 20,000,000                    $20,096,975                $                           $     42,025
     -Contract ................................. .          ~'!.O2~2-605                 1<h818,67il                     ----"!~1 ,83~             ~Q8,000
                                                        $ 34,029,605                    $30,915,649                $       191,833             $ 250,025
     FSS
     -Internal ................................... .    $                               $                          $                           $
     -Contract ................................. .              _~0,594-,~~                 ~,366}363                     902,360
                                                                                                                       - - - .----_.--
                                                                                                                                                 193,982
                                                                                                                                                   ~~-----




                                                        $ 40,594,551                    $38,366,863                $      902,360              $ 193,982
     IRMS
     -Internal ................................... .    $                               $                          $                           $
     ·-Contract ................................. .       31,235,735
                                                            -    ---- .------
                                                                                         26,048,653
                                                                                            --~-----      ---
                                                                                                                      6,550,605
                                                                                                                    --------_.----                 il&~,_849
                                                        $ 31,235,735                    $26,048,653                $ 6,550,605                 $4,033,849
     Other GSA
     -Internal ................................... .    $             289,192           $      289,192             $ 3,041,095                 $3,040,965
     -Contract ................................. .              --"   ---",   ..- -         --   - - - . -----         -----..- - - -   ----       ------
                                                        $             289,192           $     289,192              $ 3,041,095                 $3,040,965

     TOTAL ....................................... .    $106,149,083                    $95,620,357                $10,685,893                 $7,518,821

     TOTAL
     RESOLVED
     COSTS ...................................... .     $103,139,178




                                                                                                                                                               19
     4. Contract Audit Settlements                                                 in negotiations with contractors. Overall, management
                                                                                   commitments on GSA audits represented almost 91 per-
     Table 4 compares contract audit resolution amounts with                       cent of the resolved amounts.
     the corresponding management commitments achieved



                                         Table 4.        Summary of Contract Audit Settlements
                                                                              Avoidance                                            Recovery
                         GSA                          No. of             Costs      Management                               Costs     Management
                       Program                       Reports            Resolved    Commitment                              Resolved   Commitment

          PBS
          -Prior................................       32           $ 3,618,235          $ 3,089,561                       $       12,731           $  12,731
          -Current...........................           8            ---
                                                                        788,833
                                                                       ------ _._----
                                                                                             641,371
                                                                                          --------         ~       ----
                                                                                                                              208,000
                                                                                                                             -_...
                                                                                                                               ---    _------ ---
                                                                                                                                                      218,424
                                                                                                                                                           -
                                                                                                                                                        -----------


                                                       40           $ 4,407,068          $ 3,730,932                       $ 220,731                $ 231,155
          FSS
          -Prior................................       38           $42,486,663          $31,160,598                       $  46,013                $  44,120
          -Current ...........................         20             6,386,648
                                                                     --------   ----
                                                                                           6,365,012
                                                                                                 ..
                                                                                          ---------            _   ~--
                                                                                                                              94,577                   77,188
                                                                                                                                                        --------._.".   ----


                                                       58           $48,873,311          $37,525,610                       $ 140,590                $ 121,308
          IRMS
          -Prior................................       25           $11,895,127          $10,950,532                       $ 778,183                $ 778,183
          -Current...........................           8            1~,Z5_~525           18,568,525
                                                                                                --
                                                                                          - - - - - - --           -----
                                                                                                                              23,785                   23,785
                                                       33           $24,649,652          $29,519,057                       $ 801,968                $ 801,968
          Other GSA
          -Prior ............................... .                  $                    $                                 $                        $
          -Current .......................... .                            ---_.----                                           -"    ----------         ---_._----

                                                                    $                    $                                 $                        $
          TOTAL................................       131           $77,930,031          $70,775,599                       $1,163,289               $1,154,431 *

          TOTAL
          MANAGEMENT
          COMMITMENTS................                 $71,930,030

          *Includes $262,044 also reported under Monetary Results.



     5. Total Management Commitments                                               audit recoveries from GSA's Audit Resolution and Inter-
                                                                                   nal Controls Division. Between October I, 1987 and
     Drawing upon the information presented in Tables 3 and                        March 31, 1988, Agency records show that $4,889,927
     4, OIG internal and contract audits involving GSA pro-                        was recovered and deposited in the Treasury as the result
     grams resulted in management commitments to more                              of OIG audits.
     efficiently use $91,161,766 and to recover $4,237,421.


                                                                                   7. Audit Followup
     6. Recoveries
                                                                                  GSA Order ADM 2030.2A places primary responsibility
     The General Accounting Office recommended that OIG                           for follow up on the implementation of resolved audit rec-
     Reports to the Congress include data on actual monetary                      ommendations with the Audit Followup Official. The
     recoveries in addition to management commitment                              Audit Resolution and Internal Controls Division, Office
     information. Although such a requirement has not yet                         of Administration, acts as staff to the Audit Followup Of-
     been instituted, the GSA OIG requested data on actual                        ficial in this function.




20
The Ole performs its own independent reviews of imple-                              8. Investigative Workload
mentation actions on a test basis. This period, the Ole
performed 13 implementation reviews. Management had                                 Table 5 presents detailed information on investigative
successfully implemented the recommendations con-                                   workload by case category. The Ole opened 241 cases and
tained in 9 of these reviews. In the other 4 instances, rec-                        closed 175 caseSj only 25 of these cases were administra-
ommendations were not being implemented in                                          tively closed without referral.
accordance with the action plans. All of these audits in-
volved PBS programs.                                                                In addition to these cases, the Ole received and evalu-
                                                                                    ated 113 complaints/allegations from sources other than
A report on each implementation review is distributed to                            the Hotline that involved eSA employees and programs.
the cognizant management official and to the Audit Res-                             Based upon analyses of these allegations, Ole investi-
olution and Internal Controls Division.                                             gations were not warranted.




                                                      Table 5.             Investigative Workload
                               Case                                        Cases Open        Cases        Cases        Cases Open
                              Category                                       10/1/87        Opened        Closed         3/31/88
     White Collar Crimes .................................... .               207             108            70             245
     Other Crimes Involving GSA Operations .... ..                             39              25            20              44
     Contractor Suspension/Debarment ............ .                            42              28            19              51
     Employee Misconduct ................................. .                   46              33            31              48
     Other ........................................................... .       35              47            35              47
     TOTAL ....................................................... ..         369             241           175             435



Table 6 distributes the 241 new investigative cases                                 within the white collar crime category. Most of the new
opened this period (Table 5) by case category and eSA                               cases (79 percent) involved PBS and FSS programs.
program area. Notably, 45 percent of the cases opened fell




                                   Table 6.           Distribution Of Cases Opened This Period
                               Case                                                                                       Other
                              Category                                        PBS            FSS          IRMS             GSA
     White Collar Crimes .....................................                 44             43            17               4
     Other Crimes Involving GSA Operations ......                              13             10                             2
     Contractor Suspension/Debarment .............                             17              9                             2
     Employee Misconduct... ...............................                    23              4             3               3
     Other ............................................................         6             21             3              17
                                                                                                                            --~~




     TOTAL .........................................................          103             87            23              28




                                                                                                                                            21
     9. Referrals                                                                         The status of OIG administrative referrals is as follows:

     The OIG makes three types of referrals to officials out-                                                                                   Cases      Subjects
     side GSA: criminal, civil, and investigative. During this                              Pending Decision
     period, we referred 37 cases involving 66 subjects to the                                as of 10/1/87 ........................ ..           47          69
     Department of Justice or other authorities for criminal                                Referrals .................................... .      55          61
     prosecutive consideration. The status of OIG criminal                                  Action Completed .................... .               63          83
     referrals is as follows:                                                               Pending Decision
                                                                                              as of 3/31188 ........................ ..          39           47
                                                             Cases        Subjects        Of the 55 cases referred for administrative action this pe-
        Pending Prosecutive Decision                                                      riod, 32 cases (35 subjects) involved GSA employees. As a
          as of 1011/87 ........................ ..             20              42        result of these and prior referrals, management took the
        Referrals .................................... .        37              66        following actions against GSA employees:
        Declinations ............................ ..            29              28
        Accepted for Prosecution ........ ..                    14              18          Reprimands...............................             15
        Pending Prosecutive Decision                                                        Suspensions...............................             3
          as of 3/31188 ........................ ..             23              62          Demotions.................................             2
                                                                                            Terminations.............................              6
     The OIG also referred 9 cases involving 11 subjects to
     either the Civil Division of the Department of Justice or
     a U.S. Attorney for civil fraud litigation consideration.
                                                                                          11. Contractor Suspensions and
     The status of OIG civil referrals is as follows:                                         Debarments
                                                                                          This period, the OIG referred 6 cases involving 22 sub-
                                                             Cases        Subjects        jects for suspension and 11 cases involving 32 subjects for
       Pending Litigation Decision as                                                     debarment. As a result of these and prior referrals, man-
         of 10/1187 ............................ ..             11              23        agement imposed 9 suspensions and 27 debarments.
       Referrals .................................... .          9              11        Management disapproved 9 debarments.
       Declinations ............................. .               3              1
       Accepted for Litigation ............ .                     4              5        The status of OIG suspension and debarment referrals is
       Pending Litigation Decision as                                                     as follows:
         of 3/31188 ............................ ..             15              28                     Suspensions                              Cases      Subjects
     The OIG made 15 referrals to other Federal or State agen-                              Pending as of 1011/87 .............. ..               2            6
     cies for further investigation or other action.                                        Referrals .................................... .      6          22
                                                                                            Action Completed .................... .               2            9
                                                                                            Pending as of 3131/88 .............. ..               6           19

                                                                                                       Debarments                               Cases      Subjects
     10. Administrative Referrals and Actions                                               Pending as of 10/1/87 .............. ..              13          64
                                                                                            Referrals .................................... .     11          32
     Frequently, OIG investigations disclose nonprosecutable                                Action Completed .................... .               9          36
     wrongdoing on the part of GSA employees, contractors, or                               Pending as of 3/31188 .............. ..              15          60
     private individuals doing business with the GSA. The
     OIG refers these cases to GSA officials for administrative
     action.                                                                              12. Summary of Referrals by GSA
     During the period, we referred 55 cases involving 61 sub-                                Program Area
     jects for administrative action. In addition, we referred 51
     cases involving 72 subjects to GSA officials for informa-                            Table 7 summarizes OIG referrals this period by type of
     tional purposes only.                                                                referral and GSA program area.


                                                Table 7.           Summary Of OIG Subject Referrals
                                       GSA                                                                            Adminis-                 Suspension/
                                     Program                                    Criminal         Civil                 trative                  Debarment
            PBS .............................................................        31              3                     30                      17
            FSS..............................................................        24              8                     16                      34
            IRMS............................................................         11                                      3
           Other GSA .................................................. .                                                  12                          3
           TOTAL.........................................................            66            11                      61                      54
22
13. Criminal and Civil Actions                                                     an individual, settlements being reached in 3 cases with
                                                                                   6 subjects, and judgments being entered in 1 case involv-
                                                                                   ing 3 subjects.
Cases accepted for criminal prosecution during this and
prior periods resulted in 6 indictmentslinformations and                           Table 8 summarizes individual criminal and civil actions
9 successful prosecutions. Civil referrals from this and                           by GSA program area. In addition, there were unsuccess-
prior periods resulted in a civil fraud complaint against                          ful criminal cases against 2 subjects.




                                      Table 8.           Summary Of Criminal And Civil Actions
                                                                                Indictments/                             Civil
                                    GSA                                        Informations/      Successful         Settlements/
                                 Program                                         Complaints      Prosecutions        Judgments
     PBS ................................................................. .        2                     2                1
     FSS ................................................................. .        4                     6                8
     IRMS ............................................................... .         1                     1
     Other GSA ....................................................... .
     TOTAL ............................................................ .           7                     9                9




14. Monetary Results                                                               In addition, the OIC identified for recovery $422,256
                                                                                   in money and/or property during the course of its
                                                                                   investigations.
Table 9 presents the amounts determined to be owed the                             Because of the collaborative nature of OIG activities,
Government as a result of criminal and civil actions. The                          $262,044 of the amounts reported as investigative recov-
amounts do not necessarily reflect actual monetary                                 eries and criminal and civil recoveries is also reported
recoveries.                                                                        under management commitments to recover funds.




                                               Table 9.           Criminal And Civil Recoveries
                                                                                 Criminal                Civil              Total

     Fines and Penalties ......................................... .             $744,050            $                   $ 744,050
     Settlements/Judgments .................................. .                                          267,044           267,044
     Restitutions ..................................................... .         207,860                                  207,860
     TOTAL ............................................................ .        $951,910            $267,044            $1,218,954




15. OIG Subpoenas
During the period, 34 OIG subpoenas were issued.




                                                                                                                                               23
      SECTION VII-REVIEW OF LEGISLATION AND
      REGULATIONS

      Section 4(a)(2) of the Inspector General Act of 1978 re-       •   H. R. 3557, a bill to reform the Federal procurement
      quires the OIG to review existing and proposed legisla-            protest system. We opposed this bill, which would
      tion and regulations relating to GSA programs and                  greatly expand the existing rights and remedies of
      operations. To fulfill this legislated responsibility, the         aspiring contractors. We particularly opposed the
      OIG maintains a clearance system, coordinated by our               provision allowing recovery of preparation costs.
      legal staff, that ensures OIG review of all proposed leg-          We advised against any such radical changes, ab-
      islation, regulations, and internal directives affecting           sent more study and justification. We also recom-
      any aspect of GSA operations.                                      mended that limits be established for attorneys'
                                                                         fees.
                                                                     •   H. R. 3500, the Major Fraud Act of 1987. We
                                                                         strongly supported this bill, which would create a
      A. Legislation/Regulations                                         new crime category relating to frauds involving
                                                                         any procurement, exceeding $1 million, of property
         Reviewed                                                        and services for the Government. The bill would
                                                                         also allow for potential imprisonment of not more
      During this period, the OIG reviewed '208 legislative              than 7 years and a fine of not more than twice the
      matters and 104 proposed regulations and directives. We            fraud amount.
      provided substantive comments on 16 legislative matters
      and 7 regulations and directives.                              •   S. 328, the Prompt Payment Act Amendments of
                                                                         1987. We opposed this bill, which entitles a con-
                                                                         tractor to double any late payment interest penalty,
                                                                         if certain conditions are present. We reasoned that
      B. Significant Comments                                            the existing obligation to pay interest seems suffi-
                                                                         cient' while the double penalty appears punitive.
      The OIG provided significant comments on the following
      legislation, regulations, orders, and directives:              •   H. R. 3675, the Real Estate Appraisal Reform Act
                                                                         of 1987. We generally supported the concept of an
        •   S. 908, a bill to amend the Inspector General Act of         independent real estate appraisal function, but
            1978. We strongly endorsed those technical amend-            questioned whether it is necessary to create an en-
            ments that increase uniformity of authorities and            tirely new agency to accomplish this goal, particu-
            responsibilities among Inspectors General, while             1arly when no cost/benefit analyses have been
            expressing concern about the title and authorities           performed. We also recommended deletion of that
            of the newly created "internal audit units:'                 section of the bill allowing appraisals to be per-
                                                                         formed by non-certified individuals as long as final
        •   S. 1975, the Comprehensive Federal Law Enforce-              approval is given by a certified appraiser.
            ment Improvement Act of 1987. We supported this
            bill, which expands the authorities and benefits of      •   H. R. 1807, a bill to amend the Small Business Act
            law enforcement officers and establishes a tempo-            to reform the Capital Ownership Development
            rary commission to study compensation issues. We             Program. We objected to the provisions of this bill
            recommended that OIG investigators be provided               that would require the Inspector General of the
            with arrest authority comparable to that of other            Small Business Administration to provide any in-
            Federal law enforcement agents. Finally, we ex-              formation requested by the cognizant Congres-
            pressed reservations about expansion of the law en-          sional committees, regardless of the sensitivity of
            forcement authorities of the Comptroller General,            the information, in connection with ongoing inves-
            an official of the legislative branch, because of con-       tigations and audits and, under certain circum-
            stitutional concerns.                                        stances, to conduct an investigation when directed
                                                                         by the House or Senate Small Business Commit-
        •   H. R. 1950, a bill to require that telephone moni-           tees. We expressed serious reservations about these
            toring by employees be accompanied by a regular              provisions, pointing out both constitutional and
            audible warning tone. We strongly opposed this               practical concerns.
            bill, finding it objectionable because it did not con-
            tain an exception for the monitoring of phone calls      •   S. 1014, the Federal Civil Penalties Inflation Ad-
            for legitimate Federal law enforcement purposes,             justment Act of 1987. We strongly supported the
            such as consensual monitoring, monitoring pur-               concepts set forth in this bill, particularly: the reg-
            suant to a court order, or for other properly estab-         ular adjustment for inflation of civil monetary pen-
            lished reasons.                                              altiesj the deterent effect of civil monetary


'24
    penalties and the promotion of compliance with            $250,000). We further suggested that the require-
    the law; and the improved collection by the Govern-       ments analysis process should include much
    ment of civil monetary penalties. We did, however,        broader consideration of fire safety and physical
    express concern that the administrative burdens           security requirements in telecommunication
    and costs presented by enactment of this legisla-         facilities.
    tion could outweigh any likely returns.
•   Internal Physical Security Handbook. We proposed      •   Federal Supply Schedule Contracting. We generally
    that all major GSA physical security acquisitions         suggested that the proposed GSA procedures pro-
    and actions be subjected to an independent man-           vide more "positive" advice, such as how to achieve
    agement review process. We also suggested broad-          more favorable discounts, to contracting officers.
    ening the requirement for wearing credentials in          We specifically recommended that the procedures
    computer facilities to include all areas within the       be made consistent with the Federal Acquisition
    secured perimeter.                                        Regulation that permits contracting officers to re-
                                                              quire cost or pricing data when the price is not rea-
•   Telecommunications Acquisitions. We recom-                sonable, even though the tests of commerciality
    mended that agencies be required to obtain GSA's          have been satisfied. We also suggested a number of
    written approval prior to proceeding with any ma-         technical changes.
    jor acquisition (generally, a procurement over




                                                                                                                  25
     SECTION VIII-OTHER OIG ACTIVITIES

     In addition to detecting problems in GSA operations, the      legislation and regulations (Section VII), and continued
     OIG is responsible for initiating actions to prevent fraud,   preaward coverage of GSA's leasing program. These ac-
     waste, and abuse and to promote economy and efficiency.       tivities stem from the belief that many of tomorrow's
     This section details: the OIG program responding to           problems can be avoided through decisive action today.
     these legislated prevention responsibilities, and OIG in-
     volvement in projects sponsored by the President's            The ~iG's program for reviewing leases prior to award
     Council on Integrity and Efficiency (PCIE).                   provides front-end assurance that GSA is adhering to reg-
                                                                   ulations and procedures before awarding selected leases
                                                                   involving annual rentals in excess of $200,000. The re-
                                                                   views, although advisory in nature, limit opportunities
     A. DIG Prevention Program                                     for fraud, waste, and abuse in the leasing area.
                                                                   The program achieved the following results during the
     The OIG prevention program is comprised of four ele-          reporting period:
     ments that simultaneously focus on minimizing oppor-
     tunities for fraud, waste, and abuse and promoting              Lease proposals submitted for review ..............           99
     awareness among GSA employees. This four-pronged ap-            Lease proposals reviewed ..................................   43
     proach consists of:                                             Lease proposals with deficiencies .....................       24
                                                                     Lease proposals with no deficiencies ................         19
       •   Defining areas vulnerable to fraud, waste, and
           abuse and assessing the degree of vulnerability.        Major deficiencies identified through OIG preaward ad-
       •   Anticipating potential problem areas and perform-       visory reviews related to: continuing negotiations after
           ing front-end reviews to help ensure that programs      the deadline for submission of the best and final offer;
           will operate within applicable laws, policies, and      proposed rental rates exceeding those of two other offer-
           procedures.                                             ors; inadequate evaluation of alternative offers; and un-
                                                                   realistic proposed operating costs. Other deficiencies
       •   Educating GSA employees on the manifestations of        included: questionable cost factors in a proposal; no fire
           fraud and the mechanisms for reporting suspicions       and safety review; overtime rates not evaluated for rea-
           or allegations to the OIG.                              sonableness; and a missing appraisal report.
       •   Communicating the OIG presence and establish-
           ing mechanisms that promote a dialogue between
           GSA employees and the OIG.                              3. Education
                                                                   Integrity Awareness Briefings comprise the ~iG's pri-
                                                                   mary vehicle for educating employees on the manifesta-
     1. Definition                                                 tions of fraud and abuse. These briefings explain the
                                                                   statutory mission of the OIG and the functions executed
     The OIG considers the identification of vulnerable areas      by each of our component offices. In addition, through
     to be a major prerequisite to the prevention of fraud,        case studies and slides, the briefings expose GSA employ-
     waste, and abuse. To improve OIG capabilities in this
                                                                   ees to actual instances of white collar crime in GSA and
     area, we expended considerable resources during the re-
                                                                   other Federal agencies.
     porting period on a major review, performed in conjunc-
     tion with the General Accounting Office, of GSA's             The OIG conducts two types of Integrity Awareness
     FY 1987 consolidated financial statements. Further, to        briefings: general awareness briefings that are geared par-
     fulfill a commitment to the GSA Administrator and the         ticularly to new GSA employees, and program-specific
     General Accounting Office that the OIG will take lead         briefings that are targeted to employees working in spe-
     responsibility for assuring that such financial statement     cific GSA programs. Since the inception of this program
     audits are performed on an annual basis in GSA, the OIG       in 1981, 10,810 GSA employees have attended Integrity
     has worked with agency procurement officials in devel-        Awareness Briefings. This total includes the 124 Central
     oping a request for proposal for the audit of GSA's           Office and regional employees attending 10 briefings this
     FY 1988 consolidated financial statements.                    period.



     2. Anticipation                                               4. Communication
     OIG anticipation activities this period focused on pre-       A free flow of information between GSA employees and
     award audits (Sections II through V), review of proposed      the OIG is a vital prevention and detection element.



26
Recognizing this fact, the OIG issues brochures on the       The questionnaires were returned by the supervisors and
Hotline and its Report to the Congress, and displays Hot-    auditors in July and have been analyzed. The findings
line posters in all GSA buildings nationwide. We also dis-   will be summarized in a report, scheduled for issuance
tribute an OIG informational brochure to communicate         in May 1988, that will recommend improvements in
the OIG's mission and responsibilities to GSA managers       OPM's examination process.
and employees, and to serve as a recruitment tool.
During the reporting period, we received 282 Hotline
calls and letters. Of these, 75 complaints warranted fur-
ther action. We also received 4 referrals from GAO and 17
referrals from other agencies; 20 of these referrals re-     2. Review of the Characteristics of
quired further action. The remaining 207 Hotline com-           Successful Procurement and Financial
plaints required no further action and were closed.
                                                                Investigations
                                                             The GSA OIG was a participating member in this PCIE
B.. Projects Sponsored by the                                Task Force. The project was initiated to identify and ana-
                                                             lyze the characteristics of successful investigations.
    PCIE                                                     The Task Force distributed questionnaires to 18 agencies,
                                                             focusing on 459 investigative cases appearing in Reports
The OIG continued to participate in interagency projects     to the Congress for FYs 1985 and 1986. The question-
sponsored by the PCIE. Specific involvement this period      naires were completed and survey results analyzed. A fi-
is delineated by project in the paragraphs that follow. In   nal report was issued in January 1988.
addition to these efforts, OIG staff members also pro-
vided ongoing support to several PCIE committees.


1. Auditor Job Analysis Project                              3. Review of Implementation of the
                                                                Prompt Payment Act
The GSA OrG is participating, in conjunction with other
Federal agencies, in this evaluation of the applicants re-   The GSA OIG was a participant in this PCIE review
ferred by the Office of Personnel Management (OPM) for       aimed at assessing:
entry level auditor positions. The review will evaluate
whether methods for screening applicants for placement         •   The adequacy of internal controls to ensure timely
on OPM registers require change.                                   payment of bills.
The GSA OIG assisted in the development of two ques-           •   Whether interest penalties are accurately calcu-
tionnaires. The first, directed to supervisors, focused on         lated and paid.
the specific performance levels expected of GS-5, 7, and 9     •   Whether discounts are taken only when payments
auditors and the background necessary to perform at                are made within the discount period.
these levels. The second, targeted at auditors, solicited
information on the backgrounds possessed by in-              Individual agency reports were issued by each participat-
cumbents and the nature of the work they are currently       ing agency. The consolidated PCIE report was issued in
performing.                                                  March 1988.




                                                                                                                          27
APPENDICES
     APPENDIX 1-AUDIT REPORT REGISTER

     Assignment                                                                                               Date of
     Number       Title                                                                                       Report


     PBS          Contract Audits
     A70203       Preaward Audit of a Claim for Increased Costs: Diamond Detective Agency, Contract No.       10/01/87
                  GS-09P-0l205
     A70204       Preaward Audit of a Claim for Increased Costs: DiamondDetective Agency, Contract No.        10101/87
                  GS-09P-01l94
     A70708       Preaward Audit of Architect and Engineering Services Contract: Meucci Engineering, Inc.,    10107/87
                  Solicitation No. ZDE-70031
     A70497       Preaward Audit of a Claim for Increased Costs: Aires Electrical Contracting Corp.,          10/13/87
                  Subcontractor to Terminal Construction Corp., Contract No. GS-02P-23256
     A70616       Preaward Audit of Architect and Engineering Services Contract: The Design Partnership       10113/87
                  of St. Louis, Inc., St. Louis, Missouri, Solicitation No. IM092010
     A70622       Preaward Audit of Pricing Proposal: B&H Services, Inc., Solicitation No.                    10115/87
                  GS05P87GAC00l7
     A70513       Preaward Audit of a Claim for Increased Costs: Otis Elevator Company, Subcontractor to      10128/87
                  Terminal Construction Corp., Contract No. GS-02P-23256
     A70654       Preaward Audit of Architect and Engineering Services Contract: Smallwood, Reynolds,         10128/87
                  Stewart, Stewart and Associates, Inc., Solicitation No. GS-04P-87-EX-D0066
     A80070       Preaward Audit of a Claim for Increased Costs: Marathon Enterprises, Contract No. GS-       10129/87
                  09P-86-KTC-0021
     A70713       Accounting System Survey and Verification of Reported Income for Leased Space, Old St.      10/30/87
                  Louis Post Office Associates, St. Louis, Missouri, Lease No. GS-06B-28111
     A70624       Preaward Audit of Architect and Engineering Services Contract: Labouisse & Waggonner        11/03/87
                  Architects, Solicitation No. GS-09P-87-HUC-0090
     A70646       Preaward Audit of Supplemental Architect and Engineering Services Contract: Architects      11103187
                  Planners Associates, Solicitation No. 02-PPC-CM-087-000l
     A70688       Preaward Audit of Change Order Proposal: Terminal Construction Corp., Contract No.          11/05/87
                  GS-02P-23256
     A70358       Preaward Audit of a Claim for Increased Costs: Atlas Construction Co., Inc., Contract No.   11/06/87
                  GS-I0P-02575
     A70761       Preaward Audit of Architect and Engineering Services Contract: Dubin, Dubin &               11112/87
                  Moutoussamy, Contract No. GS-05-P-87-GB-C-0066
     A80028       Preaward Audit of Architect and Engineer Proposal: Environmental Systems Design, Inc.,      11/12/87
                  Consultant to Dubin, Dubin & Moutoussamy, Contract No. GS-05-P-87-GB-C-0066
     A70619       Preaward Audit of Architect and Engineering Services Contract: Mueller Associates, Inc.,    11117187
                  Contract No. GS-llB-49023
     A80034       Preaward Audit of Architect and Engineering Services Contract: Alta Consulting              11117187
                  Services, Inc., Project No. IMOn009
     A70730       Preaward Audit of Architect and Engineering Services Contract: A. Epstein and Sons, Inc.,   11120187
                  Solicitation No. GS-05- P-8 7 -GB-C-0065
     A80045       Audit of Claim for Increased Costs: Hi Lume Corporation, Contract No. GS-02B-74005          11/20/87
     A80017       Preaward Audit of Architect and Engineering Services Contract: The Johnson-McAdams          11/23/87
                  Firm, Inc., Contract No. GS-07P-87-HU-C-Ol06

30
A70626   Preaward Audit of a Claim for Increased Costs: Worth Construction Co., Inc.,              11125/87
         Subcontractor to Terminal Construction Corp., Contract No. GS-02P-23256
A80039   Preaward Audit of Architect and Engineering Services Contract: Brown, Burton and          11127/87
         Partners, Inc., Albuquerque, New Mexico, Solicitation No. GS-07-P-87-HU-C-0074
A80040   Preaward Audit of Architect and Engineering Services Contract: Metro-Tee Engineering,     11127/87
         Inc., Albuquerque, New Mexico, Solicitation No. GS-07-P-87-HU-C-0074
A70709   Preaward Audit of a Claim for Increased Costs: InnerCity Drywall Corp., Subcontractor     11130/87
         to Terminal Construction Corp., Contract No. GS-02P-23256
A70769   Preaward Audit of Lease Escalation Proposal: Leo Eisenberg Co., Managing Agent for        11/30/87
         Mountain View Development Co., Kansas Cit)j Missouri, Lease No. GS-08B-09877
A70770   Preaward Audit of Change Order Proposal: Aires Electrical Contracting Corp.,              11/30/87
         Subcontractor to Terminal Construction Corp., Contract No. GS-02P-23256
A80031   Audit of Contractor's Net worth Computation, Civil Action No. 86-F-2404, James E. Pope,   11/30/87
         Sr.
A80041   Preaward Audit of Lease Escalation Proposal: Leo Eisenberg Co., Managing Agent for        11/30/87
         Mountain View Development Co., Kansas Cit)j Missouri, Lease No. GS-08B-09877
A80049   Audit of Claim for Increased Costs: PRM Corporation, Contract No. GS-02B-74005            11/30/87
A70198   Preaward Audit of a Claim for Increased Costs: George Hyman Construction Compan)j         12/01/87
         Contract No. GS11P86MKC7250
A80048   Audit of Claim for Increased Costs: Restor Technologies, Incorporated, Contract No. GS-   12/09/87
         02B-74005
A80046   Audit of Claim for Increased Costs: Kesten Plumbing and Heating Corporation, Contract     12/10/87
         No. GS-02B-74005
A80047   Audit of Claim for Increased Costs: Star Front Corporation, Contract No. GS-02B-74005     12110/87
A80068   Preaward Audit of Architectural and Engineering Design Services Contract: Peters          12116/87
         Engineering, Consultant to Dean E Unger, AI.A, Inc., Project No. ICA 11230
A70607   Preaward Audit of Architect and Engineering Services Contract: Interfield Engineering     12117/87
         Compan)j Solicitation No. GS-07-P-87-HU-C-0073
A70577   Preaward Audit of a Claim for Increased Costs: Bunker Metal Fabricators, Inc., Second     12/21/87
         Tier Subcontractor to Terminal Construction Corp., Contract No. GS-02P-23256
A80006   Preaward Audit of Architectural and Engineering Design Services Contract: Dean E          12121/87
         Unger, AI.A, Inc., Project No. ICA 11230
A80069   Preaward Audit of Architectural and Engineering Design Services Contract: Charles A       12/21/87
         Martin & Associates, Project No. ICA 11230
A80082   Preaward Audit of Architect and Engineering Services Contract: Law Engineering,           12121/87
         Solicitation No. GS-07-P-87-HU-C-0089
A70269   Preaward Audit of Change Order Proposal: Blake Construction Co., Inc., Contract No. GS-   12122/87
         11B-08981
A70631   Preaward Audit of Change Order Proposal: Tower Construction Compan)j Contract No.         12122/87
         GS-UP-860l
A70663   Preaward Audit of a Claim for Increased Costs: The Lerner Corporation, Lease No. GS-      12122/87
         11B-50061
A80050   Preaward Audit of Architect and Engineering Services Contract: Lohan Associates, Inc.,    12122/87
         Solicitation No. GS-05-BC-P-87-GBC-0062
A80168   Audit of Claim for Increased Costs: Trio Industries, Inc., Contract No. GS-02B-74005      12123/87
A80026   Preaward Audit of Architect and Engineering Services Contract: Cannon St. Louis, Inc.,    12/24/87
         Clayton, Missouri, Solicitation No. IM092009
A80042   Preaward Audit of Lease Escalation Proposal: Leo Eisenberg Co., Managing Agent for        12/30/87
         Mountain View Development Co., Kansas Cit)j Missouri, Lease No. GS-08B-09877


                                                                                                              31
 A70644       Preaward Audit of Architect and Engineering Services Contract: White, Dolce & Barr          01/04/88
              Architects and Planners, Inc., Contract No. GS-07-P-87-HU-C-0094
     A80l67   Audit of Claim for Increased Costs: Beck and Sclafani Mechanical Piping Contractors,        01104/88
              Inc., Contract No. GS-02B-74005
 A80064       Preaward Audit of Architect and Engineering Services Contract: Roache, Mercer & Faison,     01/11/88
              Inc., Solicitation No. ZDE-70008
 A80l52       Preaward Audit of a Claim for Trash Removal Costs: Mr. Klean's Janitor and Maintenance      01/11/88
              Service, Inc., GSBCA No. 9010, Contract No. GS-05B-42295
     A70nl    Preaward Audit of Architect and Engineering Services Contract: Architrave P.          c.,   01/15/88
              Architects, Contract No. GSllP87MKD9019
 A70779       Preaward Audit of Cost or Pricing Data: Occupational Medical Center; Inc., Solicitation     01121/88
              No. GSllP87MJD0030
 A70359       Audit of Claim for Increased Costs: PJR Construction Corporation, Contract No. GS-02B-      01125/88
              74005
 A70606       Audit of Lease Alteration Proposal: Boston Properties, Lease No. GS-llB-60036               01126/88
 A70586       Preaward Audit of a Claim for Increased Costs: National Sprinkler Corp., Subcontractor      01128/88
              to Terminal Construction Corp., Contract No. GS-02P-23256
 A80022       Preaward Audit of Architect and Engineering Services Contract: Ray Bailey Architects,       01128/88
              Inc., Solicitation No. GS07P87HUC0089
 A70270       Audit of Change Order Proposal: Blake Construction Co., Inc., Contract No. GS-llB-          01129/88
              08981
 A70271       Audit of Change Order Proposal: Blake Construction Co., Inc., Contract No. GS-llB-          01/29/88
              08981
     A80117   Preaward Audit of Architect/Engineering Services Contract: Flack & Kurtz, Consulting        01/29/88
              Engineers, Consultants to Lohan Associates, Solicitation No. GS-05-BC-P-87 -GBC-0062
 A80091       Preaward Audit of Change Order Proposal: Terminal Construction Corp., Contract No.          02/02/88
              GS-02P-23256
 A70629       Preaward Audit of Architect and Engineering Services Contract: CHP and Associates,          02/03/88
              Inc., Solicitation No. GS-07-P-87-HU-C-0071
 A801l6       Audit of a Claim for Increased Costs: C. S. Design, Inc., Contract No. GS-08B-86212         02/04/88
 A80228       Audit of a Claim for Increased Costs: Bechtel Constructors Corporation, Contract No. GS-    02/08/88
              08B-93135
 A60431       Audit of a Claim for Increased Costs: Robert J. Didomenico, Lease No. GS-03B-80228          02/09/88
 A80055       Preaward Audit of Change Order Proposal: Terminal Construction Corp., Contract No.          02/12/88
              GS-02P-23256
 A80223       Preaward Audit of Small Business Administration 8(a) Pricing Proposal: Williams             02/17/88
              Construction Company, Omaha, Nebraska, Solicitation No. RIA82060
 A80104       Preaward Audit of Architect and Engineering Services Contract: Peck, Peck and               02/22/88
              Associates, Inc., Contract No. GSllP87MKD9027
 A80l71       Preaward Audit of Change Order Proposal: Eaton-Kenway, Inc., Salt Lake City, Utah,          02/22/88
              Contract No. GS06P87GYC0024(N)
 A80280       Preaward Audit of Consultant Contract: James R. Keogh & Associates, Inc., Contract No.      02122/88
              GS-04P-88-EX-D0021
 A80226       Preaward Audit of Lease Escalation Proposal: Continental Development Corporation,           02/23/88
              Lease No. GS-09B-60245




32
A70759   Preaward Audit of a Claim for Increased Costs: Terminal Construction Corp., Contract        02/24/88
         No. GS-02P-23256
A80120   Preaward Audit of Architect and Engineering Services Contract: Peck, Peck and               02/25/88
         Associates, Inc., Contract No. GS11P87MKD9031
A80334   Evaluation of Price Proposal Submitted by: Carltech Associates, Inc., RFP No. GS-OOP-       02/25/88
         87-BQ-0086-DB03
A80247   Preaward Audit of Architect and Engineering Services Contract: Spillis Candela and          02/26/88
         Partners, Inc., Contract No. GS-02P-88CUC00l3(N)
A70625   Preaward Audit of Cost or Pricing Data: Ogden Allied Building Services, Solicitation No.    02/29/88
         RFP-87KSC0629
A80185   Preaward Audit of Architect and Engineering Services Contract: Plunkett Keymar              02/29/88
         Reginato Architects, Contract No. GS-05-BC-P-87-GBC-0064
A80194   Preaward Audit of a Claim for Increased Costs: C B. C Enterprises, Inc., Contract No. GS-   03/01/88
         O3P-87-DXC-00l2
A80262   Preaward Audit of Lease Escalation Proposal: Crow-Meredith #2 Limited Partnership,          03/01/88
         Lease No. GS-09B-28057
A80310   Preaward Audit of Architect and Engineering Services Contract: Childs, Bertman,             03/03/88
         Tseckares & Casenico, Solicitation No. 02-PPC-CM-087-0505(N)
A80227   Preaward Audit of Architect and Engineering Services Contract: Stone and Webster            03/04/88
         Engineering Corp., Solicitation No. 02-PPC-CM-087-0505(N)
A80133   Preaward Audit of Architect and Engineering Services Contract: Summer Consultants,          03/09/88
         Inc., Contract No. GSllP87MKD9022
A80311   Preaward Audit of Architect and Engineering Services Contract: Hellmoth, Obata and          03/08/88
         Kassalaum, P.C, Solicitation No. 02-PPC-CM-087-0505(N)
A70685   Audit of a Claim for Increased Costs: WM. Schlosser Company, Inc., Contract No. GS-         03/09/88
         03B-88547
A80210   Audit of a Claim for Increased Costs: Singleton Contracting Corporation, Contract No.       03/09/88
         GS-03B-360l7
A80081   Preaward Audit of a Claim for Increased Costs: Unistrut Interior Business Systems,          03/14/88
         Contract No. GS-OlB-02294
A80199   Preaward Audit of Supplemental Architectural and Engineering Services Term Contract:        03/14/88
         Pedersen, Beckhart, Wesley & Stice Architects, Project No. PCM-3-204
A80221   Preaward Audit of Overhead Expense Rate for Construction Change Orders: Gust K.             03/14/88
         Newberg Construction Co., Contract No. GS09P86KTC0090
A80375   Audit of Proposal for Initial Pricing: willeo Construction Company, Inc., dBA 11th and F    03/14/88
         Streets Associates, Lease No. GS-11B-60264
A80382   Audit Report on Evaluation of Price Proposal: Carltech Associates, Inc., Solicitation No.   03/14/88
         GS-00P-87-BQ-0086-DB03
A80265   Preaward Audit of Small Business Administration 8(a) Pricing Proposal: Midwest              03/15/88
         Maintenance Company, Inc., Solicitation No. 6PPB870074
A80102   Preaward Audit of Architectural and Engineering Services Contract: GNM & Associates,        03/17/88
         Inc., Solicitation No. GSllP87MKD9023
A80294   Preaward Audit of Supplemental Architectural and Engineering Services Contract: Eggett      03/18/88
         & Helin, Project No. PCM-3-204
A80295   Preaward Audit of Architectural and Engineering Design Services Contract: d' Autremont-     03/18/88
         Helms & Associates, Project No. PCM-3-204




                                                                                                                33
 A80370   Preaward Audit of Architect and Engineering Elevator Services Contract: Stone and           03/18/88
          Webster Engineering Corp., Solicitation No. 02-PPC-CM-087-0505(N)
 A8032A   Preaward Audit of Small Business Administration 8(a) Pricing Proposal: Sanchez Porter's     03/21/88
          Company, Solicitation No. GS-07-P-87-HT-C-0074
 A70395   Audit of Contractual Provisions: Post Office Pavilion Joint Venture, Lease No. GS-PBS-ll-   03/23/88
          OL-9477
 A70660   Audit of a Claim for Increased Costs: The Davis Corporation, Contract No. GS-llB-38074      03/24/88
 A80237   Preaward Audit of Cost or Pricing Data: J. Craig Construction, Inc., Contract No. GSO-      03/25/88
          5P-8 7-GBC-O lll-SBA
 A80281   Preaward Audit of Lease Escalation Proposal: Smith, Halander, Smith and Associates,         03/25/88
          Contract No. GS-08B-I0728
 A80293   Preaward Audit of Cleaning Services Contract: Parkway Services, Inc., Solicitation No.      03/25/88
          GS-04P-87 -EWC-0151
 A80235   Preaward Audit of Architect and Engineering Service Contract: Walter H. Sobel, FAJA and     03/28/88
          Associates, Solicitation No. 02-PPC-CM-087-0508
 A80323   Preaward Audit of Architect and Engineering Services Contract: JonesKell/RioGroup/          03/28/88
          Jasmine Joint Venture, Contract No. GS-07P-87-HUD-0132
 A70257   Audit of a Claim for Increased Costs: Blake Construction Company, Inc., Contract No. GS-    03/29/88
          llB-08981
 A70621   Preaward Audit of Cost or Pricing Data: Len Parker & Associates, Inc., Solicitation No.     03/29/88
          GS-llP87MKC7433
 A80l22   Preaward Audit of Lease Escalation Proposal: North West Development Co., Lease No.          03/29/88
          GS-03B-6521
 A80236   Preaward Audit of Architect and Engineering Service Contract: Walter H. Sobel, FAIA and     03/29/88
          Associates, Solicitation No. 02-PPC-CM-087-0507
 A70587   Preaward Audit of Architect and Engineering Services Contract: Bower Lewis Thrower/         03/30/88
          Architects, Solicitation No. ZPA-001l8
 A80292   Preaward Audit of Guard Services Contract: Hyde's Security Services, Inc., Solicitation     03/30/88
          No. GS-04P-87-EWC-0084
 A80252   Preaward Audit of Small Business Administration 8(a) Pricing Proposal: Courtney Day,        03/31/88
          Inc., Kansas City, Missouri, Solicitation No. RM082160
 A80288   Audit of Cost Reimbursable Contract: J & J Maintenance, Inc., Solicitation No. GS-07B-      03/31/88
          21602
 A80305   Preaward Audit of a Claim for Increased Costs: S. Kane & Son, Inc., Contract No. GS-03P-    03/31/88
          86-DXC-001
 A80347   Preaward Audit of Architect and Engineering Supplemental Services Contract: Lebron          03/31/88
          Associates, Solicitation No. 02-PPC-CM-087-0511
 A80388   Audit of Proposal for Initial Pricing: Contract No. GS 11 P88EGD3 702, Diversified          03/31/88
          Engineering, Inc.

 PBS      Internal Audits
 A70775   Review of Real Estate Tax Base Period, Lease No. GS-09B-28057                               10/05/87
 A70743   Preaward Lease Review: Blackburn Industrial Park, Gloucester, MA, Lease No. GS-             10/07/87
          O1B(PEL)-03571
 A70767   Advisory Review of Proposed Supplemental Lease Agreement No. 15, Lease No. GS-06B-          10/09/87
          00194, 1735 Development Company, Kansas City, Missouri
 A40713   Review of GSA's Delegation of Leasing Authority to the Department of Defense                10/20/87
 A80001   Preaward Lease Review: 841 Chestnut Street, Philadelphia, PA, Lease No. GS-03B-40032        10/20/87


34
A70067   Review of Overtime Payments for Leased Space, Region 5                                      10/23/87
A70763   Preaward Lease Review: NASA, 2880 Broadway, New York, NY, Lease No. GS-02B-18615            10/23/87
A70764   Preaward Lease Review: Aerospace Building, 370 L'Enfant Promenade, 901 D St., Sw,           10/23/87
         Washington, DC GS-llB-70184
A70768   Review of Hotline Complaint on Vacant Space, Covington, KY, Lease No. GS-04B-22162          10/23/87
A70782   Preaward Lease Review: Willste Bldg., 7915 Eastern Ave., Silver Spring, MD, Lease No. GS-   10/23/87
         llB-20003, Supplemental Lease No.7
A80005   Preaward Lease Review: One Montvale Ave., Stoneham, MA, Lease No. GS-01B(PEL)-              10/23/87
         03564
A80059   Preaward Lease Review: 38 Courtwright Ave., Wilkes-Barre, PA, Lease No. GS-03B-79038        10/27/87
A80060   Preaward Lease Review: Allendale Square, 475 Allendale Rd., King of Prussia, PA, Lease      10/28/87
         No. GS-03B-79055
A70008   Review of the Greater Manhattan Buildings Management Field Office                           11112/87
A80067   Preaward Lease Review: 168 Montaque Street, Brooklyn, NY, Lease No. GS-02B-22419            11116/87
A80100   Preaward Lease Review: Internal Revenue Service, Quail Ridge Centre, 600 Quail Ridge        11120/87
         Drive, Westmont, IL, Lease No. GS-05B-14604
A80105   Preaward Lease Review: IRS Training Center, 200 Adams Street, Chicago, Illinois, Lease      11/23/87
         No. GS-05B-14404
A70234   Review of New Addition to Post Office-Courthouse, Charleston, SC                            11/25/87
A70287   Review of the Chesapeake Field Office, Region 3                                             11/30/87
A80132   Preaward Lease Review: Eleven Eighteen, Limited Partnership, 1801 L Street, Washington,     12/01/87
         DC, Lease No. GS-llB-80201
A80155   Preaward Lease Review: GS-04B-28ll7, Atlanta, GA                                            12/09/87
A70773   Postaward Review of Renewal Option, Lease No. GS-04B-15319, Miami, Florida                  12114/87
A80154   Preaward Lease Review: 1325 TStreet, Sacramento, California, Lease No. GS-09B-68193         12/16/87
A70491   Review of Construction Progress at the Federal Building, Knoxville, TN, Project No.         12117/87
         NTN83L002
A70722   Preaward Review of Proposed Lease Award, 1600 Block of 42nd Street, NE, Cedar Rapids,       12/21/87
         Iowa, Lease No. GS-06P-78655
A70737   Review of Haney-Claxton Developers, Contract No. GS-04B-14592                               12/21/87
A80004   Preaward Review of Proposed Lease Award, 1910 Pine Street, St. Louis, Missouri, Lease       12/22/87
         No. GS-06P-78657
A80202   Preaward Lease Review: Security Office Park, 7008 Security Boulevard, Woodlawn, MD,         12/22/87
         Lease No. GS-03B-89006
A80169   Preaward Lease Review: Paris Associates, Rosslyn E., 1621 N. Kent St., Arlington,           12/24/87
         Virginia, Lease No. GS-llB-70154
A70552   Review of the Cadman Plaza Buildings Management Field Office                                12/30/87
A80218   Preaward Lease Review: Armada/Hoffler Building, Volvo Tract, Chesapeake, VA, Lease No.      12/30/87
         GS-03B-89007
A80175   Preaward Lease Review: 77-14 Roosevelt Avenue, Jackson Heights, New York, Lease No.         01106/88
         GS-02B-22426
A60518   Review of General Services Administration Lease Enforcement Procedures                      01/15/88
A70640   Review of Potential Safety Problem with Elevator Number 1 at the A.T. Celebrezze            01119/88
         Building, Cleveland, Ohio
A80085   Preaward Lease Review: Social Security Administration, City Centre, 1 Monroe Avenue,        01/20/88
         Grand Rapids, Michigan, Lease No. GS-05B-14577


                                                                                                                35
     A80145   Review of Lease No. GS-09B-86159, Social Security Administration, Eureka, California        01/20/88
     A70766   Preaward Review of Lease No. GS-04B-280l9, Memphis, Tennessee                               01/21/88
     A80224   Preaward Lease Review: Lincoln Place Associates, 600-700 Army Navy Drive, Arlington,        01/21/88
              VA, Lease Nos. GS-llB-80202 and GS-llB-80209
     A70445   Review of the Region 4 Asbestos Program                                                     01122188
     A70682   Review of Energy Conservation Procedures in Leased Buildings Where the Government           01122/88
              Pays Utilities
     A80096   Preaward Review of Proposed Supplemental Lease Agreement No. 7, FDA Company,                01/22/88
              Overland Park, Kansas, Lease No. GS-06B-28085
     A80159   Preaward Lease Review: SW 400 6th Street Associates, 400 6th Street, Sw, Washington,        01126188
              DC, Lease No. GS-llB-70147
     A80260   Preaward Lease Review: Warehouse # 10, 3360 Industrial Road, Harrisburg, PA, Lease No.      01126/88
              GS-03B-890l0
     A70284   Review of the East Bay Field Office, Oakland, California, Region 9                          01128/88
     A70680   Review of Buildings Management Field Office, Rochester, New York                            01/29/88
 A50222       Consolidated Report on the Review of Cleaning Service Contracts                             02/01/88
     A80148   Advisory Review of Elevator Repairs in the GSA Central Office Building, Contract No. GS-    02/02/88
              ll-P-86-MKC-7310
     A70414   Preaward Review of Proposed Building Purchase, East Union Center Plaza, 810 First Street,   02/04/88
              NW, Washington, DC
     A70593   Review of Action Associated with Disposal of Polychlorinated Biphenyl Equipment in          02/04/88
              Region 5
 A80147       Review of Postaward Administration and Management of Lease No. GS-05B-14252, One            02/09/88
              Congress Center, Chicago, Illinois, Region 5
 A80277       Preaward Lease Review: Crystal Plaza 2, 3, 4, and 34                                        02/09/88
 A70640       Review of Overpayments for Elevator Maintenance at the A.J. Celebrezze Building,            02/11188
              Cleveland, Ohio
     A80302   Preaward Audit of Proposed Lease Award, 4400 College Boulevard, Overland Park, Kansas,      02/11/88
              Lease No. GS-06P-88708
 A70640       Review of Overpayments Made for Elevator Maintenance at the J.c. Kluczynski and             02118188
              E.M. Dirksen Buildings, Chicago, Illinois
     A80151   Proposed Award of Lease: Lease No. GS-08P-12856, Internal Revenue Service, 981 West         02119/88
              12th Street, Ogden, Utah
     A80278   Proposed Award of Lease: Lease No. GS-07B-13202, Federal Bureau of Investigation,           02/19/88
              10825 Financial Parkway, Little Rock, Arkansas
 A70287       Review of the East Philadelphia Field Office, Region 3                                      02122188
 A80338       Preaward Lease Review: U.S. Department of Agriculture, 5969-6039 Lakeside Boule-            02124/88
              vard, Indianapols, IN, Lease No. GS-05B-14538
 A80263       Preaward Lease Review: The Esplanade Building, 1990 K Street, NW, Washington, DC,           02126/88
              Lease No. GS-llB-80213
 A80330       Proposed Award of Lease: Lease No. GS-10B-05410, Aetna Plaza Building, Seattle,             02129/88
              Washington
 A80362       Preaward Lease Review: Farm Mutual Building, 200 West Grace Street, Richmond, VA,           03/01188
              Lease No. GS-03B-70008
 A70745       Preaward Review: Lease Consolidation, Nashville, Tennessee, Lease No. GS-04B-28100          03104/88
 A80361       Proposed Award of Lease: International Plaza, 11631 Caroline Road, Philadelphia, PA,        03/04/88
              Lease No. GS-03B-890l4


36
A80300   Preaward Lease Review: Headquarters Plaza, Morristown, NL Lease No. GS-02B-             03/09/88
         22433
A60301   Review of Controls Over Lease Payments, Region 7                                        03/10/88
A60621   Review of Repair and Alteration Work Item Inventory, Region 9                           03/17/88
A50284   Review of Border Station Projects                                                       03/17/88
A80386   Preaward Review of Proposed Lease Extension: 100 Van Ness Avenue, San Francisco,        03/17/88
         California, Lease No. GS-09B-75262
A80103   Review of GSA's Asbestos Abatement Program in the Regional Office Building, 7th &       03/18/88
         D Streets, Sw, Washington, DC
A80188   Postaward Lease Review of Lease No. GS-04B-2S085, Palmetto, Georgia                     03/18/88
A70593   Review of Disposal of Polychlorinated Biphenyls (PCB) Removed from the Phillip Bur-     03/22/88
         ton Federal Building/U.S. Courthouse, 450 Golden Gate Avenue, San Francisco, Cali-
         fornia, Region 9
A80365   Proposed Award of Lease: Military Entrance Processing Station, Anchorage, AK, Lease     03/22/88
         No. GS-lOB-05419
A80400   Advisory Report on Review of Contract Bid Specifications and Drawings Relative to As-   03/23/88
         bestos Abatement
AS0412   Preaward Lease Review: 95 Horseblock Rd., Yaphank, NY, Lease No. GS-02B-22315           03/23/88
A80404   Preaward Lease Extension Review: Rosslyn Plaza C, 1601 N. Kent St., Arlington, Vir-     03/29/88
         ginia, Lease No. GS-llB-20073
A60411   Final Interim Audit Report-Building Purchase Program, National Capital Region           03/31/88
A80396   Review of Storage Procedures for Polychlorinated Biphenyls (PCB's) in the National      03/31/88
         Capital Region
A80407   Preaward Lease Review: TBG/Rock Associates, 2000 L Street, NW, Washington, DC,          03/31/88
         Lease No. GS-llB-80241



FSS      Contract Audits
A70637   Preaward Audit of Cost or Pricing Data: Terry Manufacturing Company, Inc., Solici-      10/01/87
         tation No. 7PRT-53333/G5I7FX
A70277   Preaward Audit of Multiple Award Schedule Contract: International Business Ma-          10/07/87
         chines, Solicitation No. FCGE-A7-75402-N
A70692   Preaward Audit of Multiple Award Schedule Contract: Endure-A-Lifetime Products,         10/14/87
         Inc., Solicitation No. 7PM-53153/L5I7FX
A70690   Preaward Audit of Multiple Award Schedule Contract: Logan Company, Solicitation         10/15/87
         No.7PM-53153/L5/7FX
A70698   Preaward Audit of Multiple Award Schedule Contract: Kohler Co., Generator Division,     10/15/87
         Solicitation No. 7PM-53017/M617SB
A70645   Preaward Audit of Cost or Pricing Data: Del Paint Manufacturing Corporation, Solic-     10/16/87
         itation No. 10PN-ZWS-4063
A70632   Audit of Termination Proposal: Fillip Metal Cabinet Co., Contract No. GS-00F-68039      10/19/87
A50199   Postaward Audit of Cost or Pricing Data: Mosler Safe Company, Contract No. GS-OOF-      10/20/87
         68074
A707l0   Preaward Audit of Multiple Award Schedule Contract: U.S. Technology Corporation,        10/20/87
         Solicitation No. 7PM-l
A70691   Preaward Audit of Multiple Award Schedule Contract: National Partitions and Inte-       10/23/87
         riors, Inc., Solicitation No. 7PM-53153/L5/7FX


                                                                                                            37
     A70693   Preaward Audit of Multiple Award Schedule Contract: Coastal Power Products, Inc.,      10/23/87
              Solicitation No. 7PM-530l7/M617SB
     A70707   Preaward Audit of Multiple Award Schedule Contract: James River Graphic, Inc., So-     10/26/87
              licitation No. FCGE-B6-75424-N-8-11-87
     A70717   Preaward Audit of Multiple Award Schedule Contract: Power Systems, Division of         10/27/87
              Cummins Northwest, Inc., Solicitation No. 7PM-530l7-M6-7SB
     A80021   Preaward Audit of Multiple Award Schedule Contract: American Marine, Inc., Solici-     10/27/87
              tation No. 7PN-53009/F6/7FX
     A70699   Preaward Audit of Multiple Award Schedule Contract: Empire Generator Corporation,      10/30/87
              Solicitation No. 7PM -530l7 /M617SB
     A70723   Preaward Audit of Multiple Award Schedule Contract: Bruning Division, AM Interna-      10/30/87
              tional, Inc., Solicitation No. FCGE-B6-75424-N-8-11-87
     A80036   Preaward Audit of Multiple Award Schedule Contract: Slickbar Products Inc., Solici-    11/04/87
              tation No. 7PN53009F67FX
     A70633   Preaward Audit of Multiple Award Schedule Contract: Safety-Kleen Corp., Solicitation   11/05/87
              No.7PM-NCR-85-58
     A80013   Preaward Audit of Multiple Award Schedule Contract: 3M Compan)) Publishing Sys-        11/06/87
              terns Division, Solicitation No. FCGE-B6-75424-N-8-U-87
     A70729   Preaward Audit of Multiple Award Schedule Contract: Polaroid Corporation, Solicita-    11109/87
              tion No. FCGEB675424N81187
     A80110   Postaward Audit of Multiple Award Schedule Contract: Polaroid Corporation, Contract    11116/87
              No. GS-OOF-77322 for the Period 2/8/85 to 1131/88
     A800l6   Preaward Audit of Multiple Award Schedule Contract: Union Corporation, Optima En-      11/19/87
              closures Division, Solicitation No. 7PM-530l9-R6-7FX
     A80008   Preaward Audit of Multiple Award Schedule Contract: Boston Whaler, Inc., Rockland,     11/24/87
              MA, Solicitation No. 7PN53009F67FX
     A80052   Preaward Audit of Multiple Award Schedule Contract: Visual Graphics Corporation,       11124/87
              Solicitation No. FCGE-B6-75424-N-8-11-87
     A80015   Preaward Audit of Multiple Award Schedule Contract: Picker International, Solicita-    11125/87
              tion No. FCGE-B6-75424-N-8-U-87
     A70716   Preaward Audit of Multiple Award Schedule Contract: Onan Corporation, Solicitation     12/02/87
              No. 7PM-530l7/M6/7SB
     A800ll   Preaward Audit of Multiple Award Schedule Contract: Outboard Marine Corporation,       12/02/87
              Evinrude Motors, Solicitation No. 7PN-53009/F617FX
     A70361   Postaward Audit of Multiple Award Schedule Contract: Northwest Design Products,        12/03/87
              Inc., dba Big Toys, Contract No. GS-10F-46713 for the Period U/1/84 to 10/31/86
     A80020   Preaward Audit of Multiple Award Schedule Contract: Imtra Corporation, Solicitation    12/03/87
              No. 7PN53009F67FX
     A80014   Preaward Audit of Multiple Award Schedule Contract: Metalphoto Division, Horizons      12/04/87
              Research, Inc., Solicitation No. FCGE-B6-75424-N-8-U-87
     A80018   Preaward Audit of Multiple Award Schedule Contract: E.1. DuPont De Nemours & Co.,      12/04/87
              Inc., Solicitation No. FCGE-B6-75424-N-8-11-87
     A70739   Preaward Audit of Multiple Award Schedule Contract: Olin Hunt Speciality Products,     12/07/87
              Inc., Solicitation No. FCGE-B6-75424-N-8-11-87
     A70740   Preaward Audit of Multiple Award Schedule Contract: Ilford Photo Corporation, Solic-   12/08/87
              itation No. FCGE-B6-75424-N-8-U-87
     A80109   Preaward Audit of Multiple Award Schedule Contract: AMCO Engineering Company,          12/09/87
              Solicitation No. 7PM-530l9/R617FX
     A80010   Preaward Audit of Multiple Award Schedule Contract: Outboard Marine Corporation,       12/10/87
              Johnson Outboards, Solicitation No. 7PN-53009/F617FX
38
A80058   Preaward Audit of Multiple Award Schedule Contract: Datel, Solicitation No.            12/14/87
         7PM530l9R67FX
A80009   Preaward Audit of Multiple Award Schedule Contract: Wenger Corp., Solicitation No.     12/17/87
         PM-53153/L517FX
A80090   Preaward Audit of Multiple Award Schedule Contract: Varityper, Division of AM In-      12/17/87
         ternational, Inc., Solicitation No. FCGE-B6-75424-N-8-11-87
A80003   Compliance with Contract Provisions: ChernExec Relocation Systems, Inc., Stamford,     12/18/87
         Connecticut, Contract No. GS-00F-87041
A80129   Preaward Audit of Multiple Award Schedule Contract: Excel-Mineral Company, Inc.,       12/18/87
         Solicitation No. 10PN-SXS-6159
A80158   Preaward Audit of Multiple Award Schedule Contract: Flexiwall Systems, Inc., 7PM-      12/23/87
         53258-H6- 7FX
A80079   Preaward Audit of Multiple Award Schedule Contract: General Electric Company,          12/24/87
         Lighting Business Group, Solicitation No. 7PM-53021/R6/7FX
A80093   Preaward Audit of Multiple Award Schedule Contract: IDenticard Systems, Inc., Solic-   12/29/87
         itation No. FCGE-B6-75424-N-8-11-87
A80019   Preaward Audit of Cost or Pricing Data: Blockhouse, Inc., Solicitation No. FCNH-A1-    12/30/87
         2042-N-5-14-87
A80066   Preaward Audit of Multiple Award Schedule Contract: Duro-Test Corporation, Solici-     12/31/87
         tation No. 7PM-530211R6/7FX
A80118   Preaward Audit of Multiple Award Schedule Contract: The Coleman Company, Inc.,         01/13/88
         Wichita, Kansas, Solicitation No. 7PM-52840/J4/7FC
A80012   Preaward Audit of Multiple Award Schedule Contract: Mercury Marine, Division of        01/14/88
         Brunswick Corporation, Solicitation No. 7PN-53009/F6/7FX
A80084   Preaward Audit of Multiple Award Schedule Contract: GTE Products Corporation, So-      01114/88
         licitation No. 7PM53021R67FX
A80195   Preaward Audit of Multiple Award Schedule Contract: Mariner Outboards, Division of     01114/88
         Brunswick Corporation, Solicitation No. 7PN-53009/F617FX
A80077   Preaward Audit of Multiple Award Schedule Contract: Parker Systems, Inc., Solicita-    01115/88
         tion No. 7PN-53009/F6/7FX
A80037   Postaward Audit of Multiple Award Schedule Contract: Dionex Corporation, Contract      01119/88
         No. GS-00F-78851
A80130   Preaward Audit of Multiple Award Schedule Contract: Chas. G. Stott &. Co., Inc., So-   01/19/88
         licitation No. FCGE-D2-75419-N-ll-10-87
A80144   Preaward Audit of Multiple Award Schedule Contract: Dionex Corporation, Solicita-      01/19/88
         tion No. FCGS-Z3-400l2-N-U-17-87
A80173   Preaward Audit of Multiple Award Schedule Contract: Ring King Visibles, Inc., Mus-     01122/88
         catine, Iowa, Solicitation No. FCGE-D2-75419-N-1l-3-87
A80033   Preaward Audit of Cost or Pricing Data: Exide Corporation, Solicitation No. 7PM-       01/25/88
         53030/ A6 7/FX
A80162   Preaward Audit of Multiple Award Schedule Contract: Kelley Company, Inc., Solicita-    01125/88
         tion No. 7PM-53258/H6/7FX
A80107   Preaward Audit of Multiple Award Schedule Contract: Diversey Wyandotte Corpora-        01/26/88
         tion, Solicitation No. TFTC-88-HT-792A-B
A80114   Preaward Audit of Multiple Award Schedule Contract: Polychrome Corporation, Solic-     01/26/88
         itation No. FCGE-B6-75424-N-8-11-87
A80174   Preaward Audit of Multiple Award Schedule Contract: Snorkel, A Figgie International    01/26/88
         Company, Elwood, Kansas, Solicitation No. 7PM -5302 7/H6/7FX
A80187   Preaward Audit of Multiple Award Schedule Contract: Skyland Equipment Co., Inc.,       01/26/88
         Solicitation No. 7PM-53263/X5/7FX

                                                                                                           39
     A70784   Preaward Audit of Multiple Award Schedule Contract: MonArk Boat Co., Workboat Di-         01127 /88
              vision, Solicitation No. 7PN-53009/F6/7FX
     A80108   Preaward Audit of Multiple Award Schedule Contract: ECOLAB, Inc., Solicitation No.        01/27/88
              TFTC-88-HT-792A-B
     A80156   Preaward Audit of Multiple Award Schedule Contract: Andesite of California, Inc., So-     01127 /88
              licitation No. 10PN-SXS-6159
     A80121   Preaward Audit of Multiple Award Schedule Contract: Badger Division, Telecommun-          01128/88
              ications Technology, Incorporated, Solicitation No. 7PM-53024-R5-7FX
     A80163   Preaward Audit of Multiple Award Schedule Contract: Access Corporation, Solicitation      01/28188
              No. FCGE-D2-75419-N-ll-I0-87
     A80164   Preaward Audit of Multiple Award Schedule Contract: Kardex Systems, Inc., Solicita-       01128/88
              tion No. FCGE-D275419-N-1l-3-87
     A80097   Compliance with Contract Provisions: Howard Relocation Group, Livingston, New Jer-        02/01/88
              sey, Contract No. GS-00F-87042
     A80153   Preaward Audit of Multiple Award Schedule Contract: Gerard Metal Corporation, So-         02101/88
              licitation No. FCGE-D2-75419-N-1l-3-87
     A80161   Preaward Audit of Multiple Award Schedule Contract: Floating Floors, Inc., Solicitation   02/05/88
              No.7PM-53258/H6/7FX
     A80240   Preaward Audit of Small Business Administration 8(a) Pricing Proposal: Sanchez Por-       02/08/88
              ter's Company, Solicitation No. GS-07P-87-HTC-0272
     A80231   Preaward Audit of Multiple Award Schedule Contract: Jacobsen, Division of Textron,        02/09/88
              Solicitation No. 7PM-53263/X5/7FX
     A80065   Preaward Audit of Multiple Award Schedule Contract: North American Philips Light-         02/10/88
              ing Corporation, Solicitation No. 7PM-53021/R6/7FX
     A70785   Preaward Audit of Multiple Award Schedule Contract: MonArk Boat Co., Recreation           02/11188
              Divison, Contract No. 7PN-53009/F6/7FX
     A80184   Preaward Audit of Multiple Award Schedule Contract: Lift-A-Loft Corporation, Solic-       02/12/88
              itation No. 7PM-53027/H6/7FX
     A80113   Preaward Audit of Multiple Award Schedule Contract: Wright Line Company, Solici-          02/16/88
              tation No. FCNO-J2-2027-N
     A80l34   Preaward Audit of Cost or Pricing Data: Macrodyne, Inc., Solicitation No. FCGS-Y9-        02/16/88
              37002-N-6-11-86
     A80190   Preaward Audit of Multiple Award Schedule Contract: Acme Visible Records, Solici-         02/18/88
              tation No. FCGE-D2-75419-N-1l-10-87
     A80193   Preaward Audit of Cost or Pricing Data: O. Ames Company, Solicitation No. FCEN -FP-       02119/88
              A710l-N-7 -15-87
     A80232   Preaward Audit of Multiple Award Schedule Contract: Deere & Company, Solicitation         02119/88
              No. 7PM-53263/X517FX
     A80243   Preaward Audit of Multiple Award Schedule Contract: Midwest Handling, Inc., Solic-        02/24/88
              itation No. 7PM-53123-M6-7FX
     A80239   Preaward Audit of Multiple Award Schedule Contract: Excel Industries, Inc., Hesston,      02/29/88
              Kansas, Solicitation No. 7PM-53263/X5/7FX
     A80181   Preaward Audit of Multiple Award Schedule Contract: DuBois Chemical Company, So-          03/01188
              licitation No. TFTC-88-HT-792A-B
     A80220   Preaward Audit of Multiple Award Schedule Contract: Simon Aerials, Inc., Solicitation     03/02/88
              No. 7PM -5302 7IH617FX
     A80233   Preaward Audit of Multiple Award Schedule Contract: Century Equipment, Inc., Solic-       03/03/88
              itation No. 7PM-53263/X517FX



40
A80266    Preaward Audit of Cost or Pricing Data: American Recreation Products, Inc., New Ha-     03/03/88
          ven, Missouri, Solicitation No. R7 -87 -106
A80191    Preaward Audit of Multiple Award Schedule Contract: Philips Electronic Instruments,     03/04/88
          Inc., Solicitation No. FCGS-Z2-40010-N-U-3-87
A70595    Postaward Audit of Kaplan School Supply Corporation, Contract No. GS-I0F-47223 for      03/07/88
          the Period 5/21/85 to 7/15/87
A70661    Postaward Audit of Kaplan School Supply Corporation, Contract No. GS-I0F-4 72 70 for    03/07/88
          the Period 2/27/86 to 7/15/87
A70662    Postaward Audit of Kaplan School Supply Corporation, Contract No. GS-07F-14365 for      03/07/88
          the Period 2/2/86 to 7/15/87
A8025 1   Preaward Audit of Multiple Award Schedule Contract: Overhead Door Corporation, So-      03/08/88
          licitation No. 7PM-53258/H617FX
A80044    Preaward Audit of Multiple Award Schedule Contract: Solarex Corporation, Solicita-      03/11/88
          tion No. 7PM -53019-R6-7FX
A80094    Preaward Audit of Multiple Award Schedule Contract: TAB Products Co., Solicitation      03/17/88
          No. FCNO-J2-2027-N-9-22-87
A80250    Preaward Audit of Multiple Award Schedule Contract: Acoustics Systems, Solicitation     03/17/88
          No. 7PM-53153/L5/7FX
A80307    Preaward Audit of Multiple Award Schedule Contract: American Partitions, Inc., Solic-   03/17/88
          itation No. 7PM-53153/L517FX
A80325    Preaward Audit of Multiple Award Schedule Contract: 3M Printing and Publishing Sys-     03/18/88
          tems Division, Solicitation No. FCGE-A3-75436-N
A40252    Postaward Audit of Multiple Award Schedule Contract: Byron Motion Pictures, Inc.,       03/21/88
          Contract No. GS-OWS-52009
A80306    Preaward Audit of Multiple Award Schedule Contract: United Partition Systems, Inc.,     03/21/88
          Solicitation No. 7PM-53153/L517FX                                                           \

A60072    Postaward Audit of Multiple Award Schedule Contract: TAB Products Company, Con-         03/22/88
          tract No. GS-00F-68046 for the Period 2/1/84 to 3/31/85
A80241    Preaward Audit of Multiple Award Schedule Contract: Genie Industries, Solicitation      03/24/88
          No. 7PM-53027/H617FX
A80270    Preaward Audit of Multiple Award Schedule Contract: The Perkin'Elmer Corporation,       03/24/88
          Solicitation No. FCGS-Z3-40012-N-1l-17-87
A80271    Preaward Audit of Multiple Award Schedule Contract: Waters Division of Millipore,       03/25/88
          Solicitation No. FCGS-Z3-40012-N-1l-17-87
A80176    Preaward Audit of Multiple Award Schedule Contract: White Storage & Retrieval Sys-      03/28/88
          tems, Inc., Solicitation No. FCGE-D2-75419-N-1l-3-87
A80329    Preaward Audit of Multiple Award Schedule Contract: Oil-Dri Corporation of America,     03/28/88
          Solicitation No. 10PN-SXS-6159
A80348    Preaward Audit of Multiple Award Schedule Contract: Itek Graphix Corporation, So-       03/30/88
          licitation No. FCGE-A3-75436-N
A80075    Supplemental Audit Report to Postaward Audit of Multiple Award Schedule Contract:       03/31/88
          Xerox Corporation, Contract No. GS-OOF-69830
A80l65    Preaward Audit of Termination Proposal: Harris Corporation, Lanier Business Prod-       03/31/88
          ucts, Contract No. DUI00P86-865
A80182    Preaward Audit of Multiple Award Schedule Contract: Data Visible Corporation, Solic-    03/31/88
          itation No. FCGE-D2-75419-N-U-IO-87
A80246    Preaward Audit of Multiple Award Schedule Contract: Russ Bassett Company, Solici-       03/31/88
          tation No. FCGE-D2-7S419-N-ll-I0-87



                                                                                                             41
     A80275    Preaward Audit of Multiple Award Schedule Contract: Grove Manufacturing Company,        03/31/88
               Solicitation No. 7PM-5302 7/H6/7FX
     A802,76   Preaward Audit of Multiple Award Schedule Contract: Tate Access Floors, Inc., Solici-   03/31/88
               tation No. 7PM-53258/H617FX
     A80314    Preaward Audit of Multiple Award Schedule Contract: Del Paint Corporation, Solici-      03/31/88
               tation No. 10PN-ZNS-4249



     FSS       Internal Audits
     A60424    Review of the Franconia Customer Supply Center                                          10/21/87
     A70186    Review of the Contract Administration of Unsatisfactory Contractors, Region 5           10/23/87
     A70131    Review of Frequent Flyer Accommodation Upgrades                                         10/23/87
     A70l86    Review of Contract Administration, Unsatisfactory Contractor Performance                11/17/87
     A70179    Review of Aggregate Sales Discount Clause, Federal Supply Service                       11/18/87
     A70l48    Review of the Chicago Customer Supply Center                                            12/09/87
     A70476    Review of Region 4 Travel Management Centers                                            01/29/88
     A801l5    Review of A-76 Study of Driver Services at Kennedy Space Center, Florida                02/02/88
     A70487    Review of Requisition Processing Branch, Paints and Chemicals Commodity Center,         02/18/88
               Auburn, Washington
     A80025    Review of Small Business Administration Set Aside Partition Contracts in Region 4       02/19/88
     A80131    Review of Freight Overpayments to Empire Generator Under Contract No. GS-04F-           03/02/88
               01203
     A80304    Review of Hotline Complaint on DuBois Chemical Company                                  03/03/88
     A70l86    Review of the Contract Administration of Unsatisfactory Contractors                     03/04/88
     A80287    Technical Evaluation of Production Improvements Claimed by John Savoy and Son, Inc.     03/14/88
     A70781    Review of Price Considerations in the Automotive Commodity Center                       03/21/88
     A70605    Advisory Review of Transportation Audits                                                03/31/88


     IRMS      Contract Audits
 A80027        Audit of Price Proposal GSA RFP No. GSC-KECT-A-00009-N-4-30-87: Boeing Com-             10/12/87
               puter Services Company, Commercial Services Group (A Division of the Boeing Com-
               pany), Seattle, Washington
     A70557    Preaward Audit of Multiple Award Schedule Contract: Amdahl Corporation, Solicita-       10/13/87
               tion No. GSC-KESO-C-00036-N-4-8-87
     A70498    Preaward Audit of Multiple Award Schedule Contract: Digital Equipment Corporation,      10/15/87
               Solicitation No. GSC-KESO-C-00036-N-4-8-87
     A70533    Preaward Audit of Multiple Award Schedule Contract: Concurrent Computer Corpo-          10/21/87
               ration, Solicitation No. GSC-KESO-C-00036-N-4-8-87
 A70532        Preaward Audit of Multiple Award Schedule Contract: Momentum Systems Corpora-           10/26/87
               tion, Solicitation No. GSC-KESO-C-00036-N-4-8-87
 A70603        Postaward Audit of Multiple Award Schedule Contract: Oracle Corporation, Contract       10/30/87
               No. GS-00K-86AG-S-5574 for the Period 10/1/86 to 9/30/87
 A801l1        Audit of Price Proposal Submitted by: Software Products, Incorporated, Rockville,       11/17/87
               Maryland
 A80112        Audit of Proposal for Initial Pricing Under RFP No. GSC-OlT-7049: Systems and Ap-       ll/17/87
               plied Sciences Corporation, Vienna, Virginia

42
A80l36   Audit of Price Proposal Submitted by: Electronic Data Systems Federal Corporation,       11/25/87
         Demand Systems Division, Detroit, Michigan
A80135   Audit of Price Proposal Submitted by: ARINC Research Corporation, Annapolis,             12/03/87
         Maryland
A70166   Preaward Audit of Multiple Award Schedule Contract: AT&T, Solicitation No. GSC-          12/07/87
         KESF-G-00034-N-1l-19-86
A70167   Preaward Audit of Multiple Award Schedule Contract: 12/07/87 AT&T, Solicitation          12/07/87
         No. GSC-KESS-B-00035-N-1l-26-86
A80l39   Audit of Subcontractor Proposal to C-TEC Corporation for Initial Pricing Under RFP       12/14/87
         No. KETN-MS-87-03: Booz, Allen & Hamilton, Inc., Bethesda, Maryland
A70444   Preaward Audit of Multiple Award Schedule Contract: International Business Ma-           12122/87
         chines, Inc., Solicitation Number GSC-KESO-C-00036-N-4-8-87
A70634   Preaward Audit of Cost or Pricing Data: Centel Information Systems, Inc., Solicitation   12/22/87
         No. GSOOK87 AGS6098
A70651   Preaward Audit of Multiple Award Schedule Contract: Unisys Corporation, McLean,          12/23/87
         Virginia, Solicitation No. GSC-KESO-C-00036-N -4-8-87
A80l37   Audit of Initial Pricing Under RFP No. GSC-OIT-7049: Vanguard Technologies Cor-          12/30/87
         poration, National Systems Company, Defense Systems Division, Fairfax, Virginia
A80l41   Audit of Proposal for Initial Pricing Under RFP No. KECA-87-0l3: Advanced Manage-        12/30/87
         ment, Incorporated, Fairfax, Virginia
A80142   Audit of Price Proposal Solicitation No. GSC-OIT-7049 Submitted by: COMSI O'Fal·         12/30/87
         lon, Inc., Oak Brook, Illinois
A70344   Preaward Evaluation of Multiple Award Schedule Contract: Potomac Digital, Inc., So-      01/14/88
         licitation No. GSC-KESS-B-00035-N -11-26-86
A60609   Postaward Audit of Multiple Award Schedule Contract: Adage, Inc., Contract No. GS-       01121/88
         00K-86-AGS-5542 and GS-00K-840-IS-5552 for the Period 10/1/84 to 9/30/86
A60626   Postaward Audit of Multiple Award Schedule Contract: Kustom Electronics, Inc., Le-       01/26/88
         nexa, Kansas, Contract No. GSOOK85AGS0820
A60627   Postaward Audit of Multiple Award Schedule Contract: Kustom Electronics, Inc., Le-       01126/88
         nexa, Kansas, Contract No. GSOOK830lS0110
A70330   Postaward Audit of Multiple Award Schedule Contract: Data Access Systems, Inc.,          01129/88
         Contract No. GSOOK86AGS5299 for the Period 7/1/86 to 3/31/87
A80214   Preaward Audit of Multiple Award Schedule Contract: Grid Systems Corporation, So-        02/02/88
         licitation No. GSC-KESS-B-00037-N-1l-18-87
A70566   Preaward Audit of Multiple Award Schedule Contract: AT&T Technology Systems, So-         02/08/88
         licitation No. GSC-KESV-00043-N-4-16-87
A80208   Audit of Subcontractor Proposal to Electronic Data Systems Corporation for Initial       02112/88
         Pricing Under RFP No. GSC-OIT-7094: CAPI, Incorporated-Federal, Fairfax, Virginia
A80192   Preaward Audit of Multiple Award Schedule Contract: Panasonic Industrial Company,        02122/88
         Solicitation No. GSC-KESR-00045-N-1l-24-87
A80086   Audit of a Claim for Increased Costs: SMC Information Systems, Contract No. GS-          02123/88
         00C-60081
A80l77   Preaward Audit of Multiple Award Schedule Contract: Vicon Industries, Inc., Solicita-    02124/88
         tion No. GSC-KESR-00045-N-11-24-87
A80216   Preaward Audit of Multiple Award Schedule Contract: Sony Corporation of America,         02124/88
         Solici tation No. GSC- KESR -00045-N -11-24-87
A80140   Audit of Proposal for Initial Pricing Under RFP No. KETN-MS-87-03, Centel Business       02129/88
         Information Systems, Inc., (Formerly, Sigma Data Services) Rockville, Maryland
A80211   Preaward Audit of Cost or Pricing Data: Rockwell International Corporation, Contract     03/01188
         No. GSC-KESV-00044-N-23-87
                                                                                                             43
A80269        Preaward Audit of Multiple Award Schedule Contract: Fairchild Weston Systems, Inc.,        03/01/88
              Solicitation No. GSC- KESR -00046-N -12-01-87
A80322        Preaward Audit of Cost or Pricing Data: Centel Communications Systems, Contract            03/02/88
              No. GS-00C-70029
A80217        Preaward Audit of Multiple Award Schedule Contract: Sony Corporation of America,           03/07/88
              Solicitation No. GSC-KESR-00045-N,1l-24-87
A80209        Audit of Subcontractor Proposal to Electronic Data Systems, Corporation, for Initial       03/09/88
              Pricing Under RFP No. GSC-OIT-7094: Cap Gemini America, Holm Del, New Jersey
A80244        Preaward Audit of Cost or Pricing Data: IVT Computer Corporation, Solicitation No.         03/10/88
              GSC-KESS-B-0003 7 -N-1l-18-87
A80286        Preaward Audit of Multiple Award Schedule Contract: International Data Science, Inc.,      03/10/88
              Solicitation No. GSC- KESS-G-00038-N -11-24-87
A80203        Preaward Evaluation of Multiple Award Schedule Contract: Government Technical              03/11/88
              Services, Inc., Solicitation No. GSC-KESS-B-00037-N-1l-18-87
A80255        Preaward Audit of Multiple Award Schedule Contract: Sony Corporation of America,           03/14/88
              Solicitation No. GSC-KESV-00047-N-12-03-87
 A80326       Preaward Audit of Multiple Award Schedule Contract: Wabash Datatech, Inc., Solici-         03/16/88
              tation No. GSC-KESV-00047-N-12-03-87
 A80351       Preaward Audit of Multiple Award Schedule Contract: Centel Information Systems,            03/18/88
              Inc., Solicitation No. GSC-KESS-B-00037-N-1l-18-87
 A80215       Preaward Audit of Multiple Award Schedule Contract: Sony Corporation of America,           03/21/88
              Solici ta tion No. GSC-KESR -00045-N -11-24-87
 A80264       Preaward Audit of Multiple Award Schedule Contract: 3M Company, Magnetic Media             03/29/88
              Division, Solicitation No. GSC-KESV-00047-N-12-03-87
 A80123       Preaward Audit of Cost or Pricing Data: C-Tec Corporation, RFP No. KETN-MS-87-03           03/31/88
 A80125       Audit of Termination Proposal: Centel Information Systems, Inc., Subcontractor to          03/31/88
              MBF Business Centers, Inc., Contract No. GS-OOK-83-02C-2749
 A80201        Preaward Audit of Multiple Award Schedule Contract: Compaq Computer Corporation,          03/31/88
               Contract No. GSOOK8 7 AGS6036
 A80204        Preaward Audit of Cost or Pricing Data: Falcon Microsystems, Inc. (Apple), Solicitation   03/31/88
               No. GSC-KESS-B-00037-N-1l-18-87



 IRMS          Internal Audits
 A70454        Review of Security and Fire Safety at the Region 6 Public Buildings Service Computer       11/25/87
               Facility
 A70454        Review of Security and Fire Safety at the Discrepancy Reports Center Computer Facil-       01/12/88
               ity in Region 6
 A70454        Review of Security and Fire Safety at the Information Resources Management Service         02/29/88
               Computer Facility in Kansas City, Missouri
 A70294        Review of Contract Services Program Complaint in the National Capital Region               03/02/88
 A70454        Review of Computer Security, Region 9                                                      03/09/88



     Other     Contract Audits
     A80074    Audit of Proposal for Initial Pricing: Advanced Metallurgy and Testing Corp., Contract     10/23/87
               No. DMC-A131
     A80087    Audit of Price Proposal for Initial Pricing: Brush Wellman, Inc., Contract No. DMC-        10/23/87
               A131

44
Other     Internal Audits
A70343    Review of the East Philadelphia Field Office Imprest Fund                                10/08/87
A70324    Review of Controls Over Transportation Accounts Payable System Payments                  10108/87
A70178    Advisory Report on the Vista del Arroyo Property Disposal, Pasadena, California          10115/87
A70131    Review of Employee Use of Frequent Flyer Bonuses                                         10123/87
A70776    Review of Imprest Fund, San Francisco Fleet Management Center, Region 9                  11110/87
A70778    Review of Imprest Fund, Santa Maria Fleet Management Center, Region 9                    11125187
A7007l    Review of Controls Over Manual Payments                                                  12102/87
A70724    Review of Imprest Fund Operations, Buildings Management Field Office, 405 South          12110/87
          Tucker Blvd., St. Louis, Missouri
A70725    Review of Imprest Fund Operations, Buildings Management Field Office, 1520 Market        12110187
          Street, St. Louis, Missouri
A80062    Review of Imprest Fund Operations, Buildings Management Field Office, 444 SE             12121187
          Quincy, Topeka, Kansas
A70755    Review of Imprest Funds, Fleet Management Center and Wholesale Distribution Facil-       12123/87
          ity, Fort Worth, Texas
A70734    Review of the West Philadelphia Field Office Imprest Fund                                12129/87
A70777    Review of Imprest Fund, San Diego Fleet Management Center, Region 9                      01108/88
A70239    Review of Manual Payments                                                                01115/88
A70735    Review of the Regional Office Imprest Fund, Philadelphia, PA                             01115/88
A70512    Review of the Region 6 Finance Division's Compliance with the Prompt Payment Act         01119/88
A70001    Review of the Federal Managers' Financial Integrity Act, Section 4 Program for Fiscal    02/17/88
          Year 1986
A80272    Review of the Pittsburgh Field Office Imprest Fund                                       03123/88
A80301    Review of Seattle Field Office Imprest Fund, Seattle, WA                                 03124/88
A80057   . Review of the Federal Managers' Financial Integrity Act, Section 2 Program for Fiscal   03128/88
           Year 1987
A70757    Review of Denver Duplicating Plant                                                       03/30/88
A70757    Review of Billings Printing Plant                                                        03/30/88
A80024    Review of Unliquidated Obligations and Year-end SpendinK Fiscal Year 1987                03/30/88
A70374    Review of Compliance With Prompt Payment Act                                             03/31188
A70403    Review of Accounts Payable For Utilities                                                 03/31188
A70757    Review of Dallas Duplicating Plant                                                       03/31188
A70757    Review of Salt Lake City Printing Plant                                                  03/31188
A70757    Review of Albuquerque Duplicating Plant                                                  03131188
A70760    Review of National Forms and Publications Center                                         03/31188
A80056    Review of the Federal Managers' Financial Integrity Act, Section 4 Program for Fiscal    03/31188
          Year 1987




                                                                                                              45
APPENDIX II-DELINQUENT DEBTS

GSA's Office of Comptroller provided the information                   on upgrading collections functions and enhancing debt
presented herein.                                                      management. These activities included the following:
                                                                         .. A new multiple award schedule contract was issued
                                                                            for debt collection services and six contractors re-
                                                                            ceived awards. At the same time, GSA's Office of
GSA Efforts to Improve Debt                                                 Finance finalized procedures for forwarding delin-
                                                                            quent accounts to the collection agencies.
Collection                                                                •    A regional finance division began offering GSA
                                                                               non-Federal debtors an option of paying by credit
                                                                               card, rather than only by check.
During the period October I, 1987 through March 31,
1988, GSA efforts to improve debt collection and reduce                   CD   Three mortgages valued at approximately $122,000
the amount of debt written off as uncollectible focused                        were paid off.


Non..Federal Accounts Receivable

                                                                      As of                 As of
                                                                  October 1, 1987       March 31, 1987        Difference

      Total Amounts Due GSA ............................. .         $31,919,113            $41,497,819        $ 9,578,706
      Amount Delinquent ..................................... .     $16,914,003            $15,402,376        $(1,511,627)

      Total Amount Written Off as Uncollectible
        Between 10/1/87 and 3/31/88 ........... ....... .             $873,839



 Of the total amounts due GSA and the amounts delin-                    due GSA and the amount delinquent as of March 31, 1988,
 quent as of October I, 1987, $14.3 million and $13.1 mil-              $10.1 million and $10.1 million, respectively, are being
 lion, respectively, were in dispute. Of the total amounts              disputed.




46
NOTES
NOTES
NOTES
NOTES
